<html>
<title> - [H.A.S.C. No. 110-23] HEARING ON NATIONAL DEFENSE AUTHORIZATION ACT FOR FISCAL YEAR 2008 AND OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS BEFORE THE COMMITTEE ON ARMED SERVICES HOUSE OF REPRESENTATIVES ONE HUNDRED TENTH CONGRESS FIRST SESSION</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



 
                         [H.A.S.C. No. 110-23]

                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2008

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                         FULL COMMITTEE HEARING

                                   ON

             BUDGET REQUEST FROM THE DEPARTMENT OF THE NAVY

                               __________

                              HEARING HELD

                             MARCH 1, 2007


[GRAPHIC] [TIFF OMITTED]






                     U.S. GOVERNMENT PRINTING OFFICE

37-654 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001

                   HOUSE COMMITTEE ON ARMED SERVICES
                       One Hundred Tenth Congress

                         IKE SKELTON, Missouri
JOHN SPRATT, South Carolina          DUNCAN HUNTER, California
SOLOMON P. ORTIZ, Texas              JIM SAXTON, New Jersey
GENE TAYLOR, Mississippi             JOHN M. McHUGH, New York
NEIL ABERCROMBIE, Hawaii             TERRY EVERETT, Alabama
MARTY MEEHAN, Massachusetts          ROSCOE G. BARTLETT, Maryland
SILVESTRE REYES, Texas               HOWARD P. ``BUCK'' McKEON, 
VIC SNYDER, Arkansas                     California
ADAM SMITH, Washington               MAC THORNBERRY, Texas
LORETTA SANCHEZ, California          WALTER B. JONES, North Carolina
MIKE McINTYRE, North Carolina        ROBIN HAYES, North Carolina
ELLEN O. TAUSCHER, California        KEN CALVERT, California
ROBERT A. BRADY, Pennsylvania        JO ANN DAVIS, Virginia
ROBERT ANDREWS, New Jersey           W. TODD AKIN, Missouri
SUSAN A. DAVIS, California           J. RANDY FORBES, Virginia
RICK LARSEN, Washington              JEFF MILLER, Florida
JIM COOPER, Tennessee                JOE WILSON, South Carolina
JIM MARSHALL, Georgia                FRANK A. LoBIONDO, New Jersey
MADELEINE Z. BORDALLO, Guam          TOM COLE, Oklahoma
MARK UDALL, Colorado                 ROB BISHOP, Utah
DAN BOREN, Oklahoma                  MICHAEL TURNER, Ohio
BRAD ELLSWORTH, Indiana              JOHN KLINE, Minnesota
NANCY BOYDA, Kansas                  CANDICE S. MILLER, Michigan
PATRICK J. MURPHY, Pennsylvania      PHIL GINGREY, Georgia
HANK JOHNSON, Georgia                MIKE ROGERS, Alabama
CAROL SHEA-PORTER, New Hampshire     TRENT FRANKS, Arizona
JOE COURTNEY, Connecticut            THELMA DRAKE, Virginia
DAVID LOEBSACK, Iowa                 CATHY McMORRIS RODGERS, Washington
KIRSTEN GILLIBRAND, New York         K. MICHAEL CONAWAY, Texas
JOE SESTAK, Pennsylvania             GEOFF DAVIS, Kentucky
GABRIELLE GIFFORDS, Arizona
ELIJAH E. CUMMINGS, Maryland
KENDRICK B. MEEK, Florida
KATHY CASTOR, Florida
                    Erin C. Conaton, Staff Director
                  Will Ebbs, Professional Staff Member
               Jenness Simler, Professional Staff Member
                   Margee Meckstroth, Staff Assistant
                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2007

                                                                   Page

Hearing:

Thursday, March 1, 2007, Fiscal Year 2008 National Defense 
  Authorization Act--Budget Request from the Department of the 
  Navy...........................................................     1

Appendix:

Thursday, March 1, 2007..........................................    41
                              ----------                              

                        THURSDAY, MARCH 1, 2007
  FISCAL YEAR 2008 NATIONAL DEFENSE AUTHORIZATION ACT--BUDGET REQUEST 
                    FROM THE DEPARTMENT OF THE NAVY
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Saxton, Hon. Jim, a Representative from New Jersey, Committee on 
  Armed Services.................................................     3
Skelton, Hon. Ike, a Representative from Missouri, Chairman, 
  Committee on Armed Services....................................     1

                               WITNESSES

Conway, Gen. James T., Commandant of the Marine Corps............     8
Mullen, Adm. Michael G., Chief of Naval Operations...............     6
Winter, Hon. Donald C., Secretary of the Navy....................     5

                                APPENDIX

Prepared Statements:

    Conway Gen. James T..........................................   122
    Mullen, Adm. Michael G.......................................    58
    Winter, Hon. Donald C........................................    45

Documents Submitted for the Record:
    [There were no Documents submitted.]

Questions and Answers Submitted for the Record:

    Ms. Davis of California......................................   164
    Mrs. Drake...................................................   166
    Mr. Kline....................................................   165
    Mr. McKeon...................................................   163
    Mr. Miller...................................................   164
    Ms. Tauscher.................................................   163
  FISCAL YEAR 2008 NATIONAL DEFENSE AUTHORIZATION ACT--BUDGET REQUEST 
                    FROM THE DEPARTMENT OF THE NAVY

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                           Washington, DC, Thursday, March 1, 2007.
    The committee met, pursuant to call, at 9:34 a.m., in room 
2118, Rayburn House Office Building, Hon. Ike Skelton (chairman 
of the committee) presiding.

 OPENING STATEMENT OF HON. IKE SKELTON, A REPRESENTATIVE FROM 
        MISSOURI, CHAIRMAN, COMMITTEE ON ARMED SERVICES

    The Chairman. Good morning.
    Let me welcome today's witnesses to our hearing on the 2008 
budget request for the Department of the Navy. And we welcome 
the secretary of the Navy, Dr. Donald Winter; chief of naval 
operations, Admiral Michael Mullen; the commandant of the 
Marine Corps, General James Conway.
    And we appreciate your appearance, and we thank you for 
your testimony.
    We will ask that your testimony be placed in the record in 
total, and hopefully you will be able to condense your remarks 
somewhat.
    And our hearing is to consider your department's position 
of three separate requests: the fiscal year 2007 supplemental, 
the fiscal year 2008 main budget request, and the 2008 war 
budget request.
    The request for the department in 2008 is $139 billion. 
When we add funding for the two wars--or, I should say, the two 
additional requests, it totals $159 billion.
    In size and content, these budgets are all very serious 
matters. It is the military--a military at war. Our Marines are 
on the front line, and many sailors, naval officers, are 
serving in front-line roles as well as providing critical 
support.
    Before delving too deeply into the budget before us, let me 
first mention a personal note, if I may, which I know is 
familiar with the Admiral. I represent the great state of 
Missouri in the middle of the country. My hometown of Lexington 
is on the major body of water, the Missouri River. It is not 
quite navigable for capital ships, but yet I have always been 
very proud that my father served aboard the battleship the USS 
Missouri, a ship of the Great White Fleet that predated the 
battleship, made famous for the signing of the end of the 
Second World War.
    My personal experience, my study of history underscore the 
importance of a strong and vibrant navy. Our interests are 
deeply tied to the maritime, especially international trade, 
and I believe that our country can only remain a great power if 
we maintain a strong navy. We must be able to project power and 
to maintain presence in order to deter potential adversaries 
and reassure our friends.
    It is without question certain of Admiral Mahan's key 
insights remain equally valid today as they did when he wrote 
them at the turn of the century.
    These beliefs about the need for a navy able to help 
achieve our range of national security goals drive my concerns 
about the shrinking size of our ship force structure.
    I feel like a bit of a broken record. And I know, Mr. 
Secretary and Admiral, you have heard me make that point at 
earlier hearings.
    We need to understand what the plan is to accelerate the 
effort to increase the size of our Navy and to ensure the 
effort--make sure that it stays on schedule.
    This month, the Navy will get down to a low of 274 ships. 
Members such as I remember participating in the drive to build 
up our Navy to a 600-ship navy. Two-hundred-seventy-four is a 
shocking number.
    I am encouraged that in 2008 the Navy will commission seven 
more ships than it decommissions. It will budget for seven more 
new-construction ships in 2008. And I appreciate the fact that 
this year's budget request is consistent with the CNO's long-
range ship-building plan, which I am sure he will discuss.
    But I still remain concerned that cost growth in ship 
construction could cripple the plan as early as this year.
    I know that three of the ships in this year's request are 
littoral combat ships (LCS), a ship class which recently 
experienced cost growth so severe that our Navy issued a stop-
work order to the contractor.
    And despite a cap of $220 million for each sea frame this 
committee imposed beginning on the fifth LCS in an effort to 
control costs, the budget request appears to ask for about $300 
million per LCS ship, number seven through number nine.
    If this is right, simply put, the budget plan doesn't 
comply with the law. Given that 55 of the ships in the long-
range ship-building plan are littoral combat ships, it is 
critical that we get back in control of the cost.
    Turning to our Marine Corps, our Marines remain deeply 
embroiled in combat in several locations around the world while 
still providing a significant portion of the Navy's 9/11 
capability to respond to unexpected events around the world.
    This committee is deeply committed to ensuring that the 
United States Marine Corps receives all of the resources it 
needs. And we stand ready to hear about the Marine Corps's 
budget, and especially its unfunded priorities. All of these 
total over $3 billion.
    On a happier note, I am very pleased to see an increase in 
the size of the Marine Corps funded in 2008 budget request, and 
I have been calling for an increase in the size of our ground 
forces for a number of years, in particular the Army. And I am 
pleased that both the Army and the Marines hopefully will be 
beneficiaries.
    Our main concern about the impact of current operations, 
especially the troop increase in Iraq, on Marine Corps 
readiness--this committee remains deeply committed to meeting 
our need of our Marines deployed to combat.
    We are especially interested in your need for the reset of 
equipment, which is fast wearing out in the Middle East. This 
committee, in a bipartisan effort, added almost $6 billion to 
last year's budget for the Marine Corps equipment reset. We 
look forward to hearing about what your reset needs are for the 
coming year.
    Let me, last, mention the desire of this committee to do 
whatever we can to improve force protection. We have focused, 
among other things, on the mine resistant ambush protected 
vehicle, known as MRAP, a program which we believe can be 
accelerated significantly.
    With that, let me recognize my friend--instead of our 
ranking today, our colleague from New Jersey, who is serving as 
ranking member today, Jim Saxton, for comments he would like to 
make.

STATEMENT OF HON. JIM SAXTON, A REPRESENTATIVE FROM NEW JERSEY, 
                  COMMITTEE ON ARMED SERVICES

    Mr. Saxton. Mr. Chairman, thank you very much. I appreciate 
being recognized at this time.
    Secretary Winter and Admiral Mullen, General Conway, thank 
you for being with us this morning. We appreciate you being 
here. And needless to say, we appreciate your service to the 
country as well as all of those you lead in the Navy and Marine 
Corps.
    It is a pleasure to have you here today to learn more about 
the fiscal year 2008 budget for the United States Navy and 
Marine Corps. While hearings like today's may seem pro forma 
because we do them each year, I believe it is critical for 
members serving on this committee to have the opportunity to 
review the budget, then ask the tough questions that we must 
ask about it so we can ensure that we make the right decisions 
for not only the 50,000 sailors and Marines serving in the 
Central Command but also for the Navy and Marine Corps as a 
whole.
    Budgets also tend to serve as signals for policy shifts. 
Today I hope that you will elaborate on a few key areas of 
interest to this committee in order to help us understand how 
the Department of the Navy is addressing some of the tough 
challenges and how we might see those decisions reflected in 
the budget.
    First, I am pleased with Secretary Gates's decision to 
increase the Marine Corps end-strength to 202,000. This is a 
great thing that he has recommended. As a matter of fact, this 
committee examined the end-strength needs of each of the 
services last year during our committee's defense review. As a 
result, we became convinced that such an increase was necessary 
to relieve stress on the force and enhance the ability of the 
Marine Corps to effectively respond to any contingency.
    Today, Secretary Winter and General Conway, I hope you will 
expand upon the areas within the budget above and beyond 
additional personnel costs which reflect funds necessary to 
ensure that you can accomplish this goal.
    Second, I would like you to address the acquisition process 
from requirements definition through fielding and sustainment. 
The question is the same today as it was last year: Why can't 
we identify a requirement, develop a solution and get it to the 
war-fighter in a reasonable period of time and at a reasonable 
cost?
    The most frustrating part of this problem is that it seems 
like we identify the same deficiency on nearly every program 
that runs into trouble, whether it is requirements creep, 
failure of the contractor to perform, or unrealistic schedules.
    Two glaring examples of this, as the chairman pointed out, 
the littoral combat ship and also, I might add, the 
expeditionary fighting vehicle. The third ship in the LCS class 
has been under a stop-work order, as we all know, since January 
due to cost growth on the first hull. It is unclear at this 
time what sort of cost risk we should have on the second LCS.
    It appears that the major cost drivers in this program were 
the parallel development of design requirements with the 
detailed design itself; the drive to meet, launch, and delivery 
dates over all else; and the lack of qualified Navy technical 
personnel to oversee the program.
    The cost growth of LCS has major impacts on other Navy 
programs, as well.
    Admiral Mullen, as you have told us, that you need support 
to sustain funding for our ship-building account consistent 
with the 30-year plan. But you can't get there if every ship in 
the Navy buy is over-budget. Congress set cost caps on several 
key ship-building programs for this explicit purpose, to help 
the Navy control cost.
    LCS is nearly 20 percent of our 313-ship Navy. Mr. 
Secretary, we are waiting to hear what course of action you 
plan to take on this vital program.
    Today I hope our witnesses will tell us how the budget for 
2008 reflects their attempts to get this right. What are we 
going to do in order to change how the Department of the Navy 
does acquisition? How are you applying lessons learned to 
another important program, the mine resistant ambush protected 
vehicle, MRAP?
    Once more, you have a program that is attempting to fulfill 
a critical war-fighting gap, and you have an aggressive 
schedule to achieve this goal. What steps are you taking to 
ensure that the same kinds of stumbling blocks--requirement 
change, imbalance in priorities--leading to poor contractor 
performance and lack of technical oversight? And we want to 
make sure that we won't impede your progress with these kinds 
of problems.
    Last, I would like to hear about how the Navy is taking 
ownership of the missile defense mission. The missile and 
nuclear developments in Iran and North Korea are a clear and 
present reminder of the need to get our Nation's missile 
defense capabilities built, tested, and fielded in sufficient 
numbers and as soon as possible.
    Last October, in the wake of the North Korean nuclear test, 
we sent a letter to the President urging him to further 
accelerate the schedule for fielding Aegis ballistic missile 
defense capabilities, including Standard Missile-2 (SM-2) and 
Standard Missile-3 (SM-3) interceptors. What options were 
considered, and what acceleration decisions are reflected in 
the budget request?
    I have been particularly concerned about the transition of 
missile defense capabilities from the Missile Defense Agency to 
the services. I am pleased that, starting this year, the Navy 
has committed operations and sustainment funding for Aegis 
ballistic missile defense. However, no missile procurement 
funds are requested in the budget.
    I am a strong supporter of Aegis ballistic missile defense. 
As such, I would encourage the Navy to identify its Aegis BMD 
force structure requirements and the resources needed to build 
these requirements.
    With that, Mr. Chairman, I would like to conclude by 
thanking our witnesses for being here today and, again, for 
their great leadership capabilities as we move forward.
    Thank you, sir.
    The Chairman. Thanks so much, Mr. Saxton.
    And welcome, gentlemen.
    Secretary Winter.

   STATEMENT OF HON. DONALD C. WINTER, SECRETARY OF THE NAVY

    Secretary Winter. Thank you very much, Chairman Skelton, 
Congressman Saxton. Thank you for the opportunity to appear 
this morning before this committee.
    Today I am joined by Admiral Mullen and General Conway, two 
outstanding leaders whose dedication to the Navy and Marine 
Corps is apparent to all who have had the pleasure of working 
with them.
    Each of us has prepared a statement for the record, which 
we respectfully submit. These documents outline in detail this 
department's priorities, the strategic thinking behind them, 
and the funding requests that are necessary to support them.
    Our priorities presented in the fiscal year 2008 budget 
request encompass both long-term and short-term requirements.
    The short-term imperatives include supporting Marines and 
sailors in the field, funding the urgent requirements such as 
the mine resistant ambush protected vehicle program, and making 
up for the losses of vehicles, equipment and aircraft that have 
been incurred in combat operations.
    At the same time, we must provide for the critical needs of 
the Navy and Marine Corps of the future. To that end, the 
Department of the Navy is pursuing an unprecedented 
modernization program across the full spectrum of our weapons 
platforms in both the Navy and Marine Corps. This drive to 
transform the force is necessary and vital to our national 
security.
    The current transformation entails a shift from a blue-
water-centric fleet to one with greater brown-and green-water 
capability. This shift in focus reflects a greater demand for 
expeditionary capability, a capability that will allow us to 
operate in the littorals. The broad transformation now under 
way includes a new generation of ships, submarines, and 
aircraft, with programs in development production already in 
operation with the fleet.
    Some of the department's new programs have encountered 
significant challenges. The Navy's littoral combat ship program 
and the Marine Corps's expeditionary fighting vehicle program 
are both innovative weapon platforms incorporating new 
technologies. We are working on solving the problems that have 
arisen so that we can deliver vitally needed capabilities to 
our war-fighters.
    Both of these programs represent the kinds of capability 
that the future Navy and Marine Corps will need to fight and 
win the wars of tomorrow. Faced with a dangerous, uncertain 
world, with terrorist enemies, states that actively support or 
condone them, and rising powers with intentions and 
capabilities that lack transparency, we have no choice but to 
improve our own capabilities.
    Mr. Chairman, in addition to addressing current and future 
needs, there are two outstanding issues from last year that I 
would like to bring to your attention.
    First, the basic allowance for housing shortfall must be 
remedied, for it represents a shortfall of over $500 million 
and has a direct impact to our sailors, Marines and their 
families.
    Second, the Department of the Navy was given a mandate to 
execute the BRAC directives, but the Base Realignment and 
Closure (BRAC) appropriation contained in the revised 
continuing appropriations resolution for fiscal year 2007 did 
not include adequate funding to support BRAC activities.
    We owe it to the sailors and Marines and their families to 
find a speedy resolution of these issues.
    Mr. Chairman, the Department of the Navy's fiscal year 2008 
budget request is critical to both the short-term and the long-
term national security of the United States.
    Thank you for your continued support for our efforts to 
meet our constitutional obligations to provide for the common 
defense of the American people. I look forward to answering 
your questions.
    Thank you very much.
    [The prepared statement of Secretary Winter can be found in 
the Appendix on page 45.]
    The Chairman. Mr. Secretary, thank you very much.
    America's number-one sailor, Admiral Mullen.

 STATEMENT OF ADM. MICHAEL G. MULLEN, CHIEF OF NAVAL OPERATIONS

    Admiral Mullen. Mr. Chairman, Mr. Saxton, members of this 
committee, thank you for your continued support of our men and 
women in uniform and for the opportunity and privilege to 
appear before you today.
    I am honored to join Secretary Winter and General Conway 
here and consider myself fortunate to serve alongside them at 
this critical time in our Nation's history.
    And it is a critical time, Mr. Chairman. As you said and 
the secretary said, we are a nation at war, and a maritime 
nation at war, fighting an elusive and adaptive enemy bent on 
using terror and irregular tactics to spread hatred and fear 
across the globe. At the same time, we are confronted by 
potentially hostile nation-states determined to develop and use 
sophisticated weapons systems.
    Your Navy is ready to meet these challenges. In fact, I 
would argue that it is more ready, more capable than I have 
ever seen it in my 38 years of active service.
    Through our fleet response plan, we continue to meet the 
demands of the combatant commanders for trained, flexible and 
sustained forces with six carrier strike groups available on 30 
days' notice and an additional carrier strike group ready to 
serve within 90 days.
    Indeed, nearly 100 of your ships and submarines are at sea 
today deployed, and more than 60,000 sailors are forward. Fully 
half of these men and women serve in the Middle East, and 
almost half of that number are on the ground, in combat and 
combat support roles. They are performing magnificently, each 
and every one.
    I had the opportunity to visit with many of them over the 
holidays in the Persian Gulf and Iraq, Afghanistan, Bahrain, 
and the Horn of Africa. I can tell you they are focused, well-
trained, and well-led. They are proud of what they are doing, 
still prouder of the difference they know they are making.
    The best readiness we have ever achieved, the best sailors 
we have ever recruited, the very best support from absolutely 
remarkable families--it is an unbeatable combination, sir.
    But we have to work hard to sustain this readiness. I 
remain concerned about high operations tempo (OPTEMPO) and 
certain shortfalls among our expeditionary forces, SEALs, 
explosive ordnance disposal personnel, our Seabees, our medical 
corps, and our naval intelligence community. And, as I 
testified to the House Appropriations Subcommittee on Defense 
last month, the accelerated wear and tear on systems and 
equipment in a harsh physical environment requires immediate 
attention, especially our Seabee equipment and older models of 
our expeditionary aircraft.
    The sound investments we have made in recent years to 
improve fleet capacity and capabilities have paid off. We must 
now re-energize our procurement accounts to maintain those 
capabilities in the future.
    Our fiscal year 2008 budget request helps us do that, 
calling for the construction of seven new ships, including a 
Virginia-class submarine, an amphibious transport dock (LPD), 
and the continued construction of a new aircraft carrier, as 
well as the addition of 188 new operational aircraft to the 
inventory--nearly 40 more than we ordered last year.
    As you know, we submitted a ship-building plan to Congress 
last year that will produce a fleet of 313 ships by 2020, a 
fleet size and balance to meet the challenges we face at the 
maximum acceptable risk. That plan, submitted again to you with 
this budget, has not changed.
    Still centered on 11 aircraft carriers and a battle force 
of 48 submarines and commensurate surface combatants, it will 
provide the Nation more options and more flexibility than ever 
before, particularly in core war-fighting competencies like 
mine and undersea warfare and anti-ballistic missile defense.
    I appreciate the support we have received from this 
committee in developing this plan and in building the fleet. It 
is important that we sustain it.
    We continue to evaluate, as we must, the impact global 
developments have had on the plan's original risk assumptions. 
The security environment is too dynamic and the pace of change 
too rapid for us not to do so. But I assure you I remain 
committed to a stable ship-building program and to pursuing, 
with our partners in industry and you on the Hill, the 
efficiencies required to make it affordable.
    Three things have definitely not changed, Mr. Chairman: my 
priorities to sustain combat readiness, build a fleet for the 
future, and develop 21st-century leaders. I know the role our 
Navy must play in helping win the war on terror, while 
providing a powerful deterrent and meeting our commitment as a 
vital element of this Nation's strategic reserve.
    I know, and I know you know, that a maritime nation such as 
ours depends in great measure on the overmatching capability, 
global reach, persistent presence, agility and lethality of a 
strong navy. We are that Navy, Mr. Chairman. And with your 
continued support, we will remain that Navy.
    Again, on behalf of your sailors, Navy civilians, and their 
families, I thank you for the opportunity to appear before you 
and stand ready to answer your questions.
    [The prepared statement of Admiral Mullen can be found in 
the Appendix on page 58.]
    The Chairman. Admiral Mullen, thank you very much.
    The commandant of the Marine Corps, General Conway.

  STATEMENT OF GEN. JAMES T. CONWAY, COMMANDANT OF THE MARINE 
                             CORPS

    General Conway. Chairman Skelton, Congressman Saxton, the 
distinguished members of the committee, thank you for the 
opportunity to report to you today on the status of your Marine 
Corps.
    I pledge to provide you with frank and honest assessments, 
and I come here today with that thought again in mind.
    In the past five years, your Marine Corps has been immersed 
in what we believe are the first battles of the long war, a 
generational struggle against Islamic extremists. The Marines 
in our operating forces are being pushed hard, strained by the 
operational tempo and the frequency of combat deployments. But 
their morale has never been higher, because they believe they 
are making a difference.
    Over two-thirds of our Marines have enlisted or re-enlisted 
since 9/11. They know full well what the Nation expects of its 
Marines in a time of war, and they are shouldering that duty 
with selflessness and courage.
    They also believe that, through its elected government, the 
people of the United States are behind them. The evidence of 
that support is everywhere: tangible support in the feeling of 
new materiel, the latest equipment to protect them in harm's 
way, the reset of the force to accomplish follow-on missions 
throughout the globe, and most recently the proposal to grow 
our end-strength.
    Increasing to 202,000 Marines will greatly reduce the 
strain both on the individual Marine and on our institution as 
a whole. The end-strength increase will gradually improve the 
deployment-to-dwell ratio in some of our most critical units. 
Currently many of these units are deployed for seven months and 
home for only seven months, some even less time, before they 
return to combat.
    Our Corps is, by law, to be the most ready when the Nation 
is least ready: the Nation's shock troops. These additional 
Marines will allows us the dwell time needed to train and 
sharpen the skills that will be required of us in the next 
contingency, thereby reducing future operational and strategic 
risks.
    Over 70 percent of our proposed end-strength increase is 
comprised of first-term Marines, so we are making the necessary 
increases in recruiting and retention. This will be a 
challenge, but our standards will remain high. We will need 
your continued support for enlistment bonuses and other 
recruiting programs, such as advertising, which are essential 
for us to continue to bring aboard the best that America has to 
offer.
    Turning to the plus-up operations in Iraq, we have 
approximately 4,000 Marines affected.
    First I would like to correct the misunderstanding by some 
in the media that our end-strength increase is directly tied to 
the plus-up in Iraq. This is not the case. Our request for 
additional Marines is separate from--indeed, it predated it by 
several weeks--the announcement of the plus-up operation.
    I also want to assure you that all Marines going into the 
al-Anbar province will be properly trained. Units that have 
been accelerated in the rotation have indeed had their training 
schedules adjusted. But those schedules include all five phases 
of our predeployment training package.
    They will be properly equipped. We have identified their 
only equipment shortfalls, which is a result of manufacturer 
nonavailability, and those are the latest generation sniper and 
spotter scopes.
    Ladies and gentlemen, your Marines recognize that this is 
an important time in history to serve our country. They are 
truly a special breed of America's warriors. It is on their 
behalf that I come before you today to answer your questions 
and help all understand how we can best support these 
tremendous young Marines and sailors in combat.
    I look forward to your questions.
    [The prepared statement of General Conway can be found in 
the Appendix on page 122.]
    The Chairman. General, thank you very much.
    And, Mr. Secretary, before I ask any questions and turn it 
over to the members, I think it is incumbent upon me to note 
that there are so many here on this committee that represent 
port cities. And what they don't know is that I represent a 
port city. Lexington, Missouri, was the largest port in western 
Missouri during the latter part of the 1930's and the 1940's 
and the 1950's. And it was the War Between the States that shut 
down our port operations. So I think that those that represent 
port cities should take note of my nautical interest along the 
Missouri River. [Laughter.]
    I will reserve my questions for a moment later.
    Mr. Ortiz.
    Let me mention this. The five-minute rule is still in 
effect. Everyone is doing well. Please do your best to abide by 
it, we appreciate it, so everybody can get their questions in. 
Thank you.
    Mr. Ortiz.
    Mr. Ortiz. Thank you, Mr. Chairman.
    Mr. Secretary, Admiral, General, thank you so much for 
joining us today.
    Admiral, in your testimony you state, ``Within our own 
hemisphere, some leaders have become increasingly vocal in 
their opposition to policies of the United States.''
    Now, I would like to know, how does the Navy's strategy 
plan, given that after BRAC there will be no longer Navy ships 
in the Gulf region--you know, we have a lot of refineries, we 
have the commercial sea lanes, we have a lot of Gulf oil-
drilling. And how do you address that?
    Admiral Mullen. Clearly----
    Mr. Ortiz. Let me, before I finish, because we are limited. 
And then I saw in some testimony that we are about to give some 
minehunters ships to Lithuania, which I think is good, to 
Turkey, which is good. They might be old, but we are not going 
to have anything on the Gulf Coast. And that concerns me, and I 
hope that you can address this question, Mr. Admiral.
    Admiral Mullen. Certainly. I understand the concern, Mr. 
Ortiz. And the statement in my testimony was focused on certain 
evolving events and rhetoric coming from the countries south of 
us.
    We have ships in that area of responsibility (AOR) 
routinely. They come from our ports on both coasts. And the way 
they are both dispersed and operated right now, I am not overly 
concerned that they can't respond to the need in that part of 
the world.
    My general philosophy there is to engage these countries 
both militarily and diplomatically. And so, my take on that is 
we are a long way from any kind of military engagement, based 
on what is going on in that part of the world.
    With regard to the minehunters, the ships to which I think 
you are referring, we have decommissioned those and recommended 
they be transferred based on the fact that I don't have a 
capability requirement for hunting mines. My warfare problem is 
in sweeping mines right now, as far as ships are concerned, 
which is why we both decommissioned them and are recommending 
they be transferred.
    Their original mission was tied to port breakout, which 
would be applicable were we to be concerned about getting out 
of our ports. I don't see that as a concern in the near term or 
the far term, which is why I think those ships should be 
transferred.
    Mr. Ortiz. We are still having problems with Katrina on the 
Gulf Coast. And the first ship that responded was from our home 
port, which was Ingleside. We were on the verge of developing 
some new technology to do away with the minehunters and put 
them on the ships, you know. Where is that technology today? 
Have they been--do we have it?
    Admiral Mullen. Sir, the future mine warfare plan 
integrates many of the capabilities that we are developing on 
the littoral combat ship, the mine warfare module. And clearly 
the response of the ships, the minehunters in particular in 
Katrina, which was terrific in clearing ports, shows the 
flexibility that we have in platforms which go to sea, whether 
they are Navy or Coast Guard. But it has not been their 
principal mission.
    And as I try to balance the books overall, that is with 
the--what is the current war-fighting requirement? That is why 
we made the decision to decommission those ships.
    Mr. Ortiz. But that is the future plan. I am talking about 
now, what do we have. I mean, we are still waiting on the 
technology, because you are talking about a future plan. Am I 
correct?
    Admiral Mullen. In terms of mine warfare?
    Mr. Ortiz. Yes, sir.
    Admiral Mullen. Yes, sir, we are actually fielding that 
plan right now. I mean, we have developed a number of 
technologies over the last ten years which we will field in the 
next couple of years. And the modules coming with LCS are a 
significant part of that. But it is not just on ships; it is in 
aviation as well.
    Mr. Ortiz. I just want you all to know that I am very 
concerned. Some of this fuel, as you well know, is used by our 
military. And all this takes is one strike, and then with 
nobody protecting the Gulf Coast and the Gulf of Mexico--I am 
very, very concerned about this. And I just wanted to mention 
this to----
    Admiral Mullen. Yes, sir. I understand.
    Mr. Ortiz [continuing]. Our leadership this morning today. 
So thank you so much. I am running out of time.
    Admiral Mullen. Thank you, sir.
    The Chairman. I thank the gentleman.
    In lieu of the ranking member, Mr. Saxton.
    Mr. Saxton. Thank you, Mr. Chairman.
    Admiral and General Conway, you both made reference in your 
opening statements to something that I would just like to make 
note of, particularly General Conway, when you said that we are 
in the first few battles of this long struggle. And it reminded 
me of some thoughts that have been occurring to many of us, to 
some of us at least, in the last period of time.
    And that is this: As time goes on and technology changes, 
our war-fighting capabilities change and the threat changes. 
And we are going to talk today about LCS and the mine resistant 
ambush protected vehicle and probably some other things. And 
that is because warfare has again changed. And the weapons 
being used against us have changed. We hear about improvised 
explosive devices (IEDs).
    But maybe one of the things that we haven't realized 
sufficiently is that our enemies are using a different kind of 
weapon against us today, different types of weapons that we 
ourselves developed and made available to them: information 
technology and television.
    Let me point out what I think is the best example of their 
smart use of this. Vice President Cheney went to Afghanistan 
recently. He stayed overnight at Bagram Air Force Base. He had 
in tow a contingent of the press. The bad guys decided they 
could make a statement. They got a guy with a suicide vest. He 
found his way to the gate of Bagram military base, or at least 
near it, got himself ensconced among 20 civilians and one 
American soldier, and pulled the cord on his vest. It was the 
biggest story in this country this week: an attempt on the vice 
president's life.
    I am pretty much convinced that wasn't an attempt on the 
vice president's life. I am convinced that that was a statement 
and a story sent to the American people. Bad news. And so, this 
information-technology world that we live in today is being 
used as a weapon to try to convince the leaders of this country 
and the American people that this war is not worth fighting. 
And I am here to say that we have no choice but to fight it 
successfully.
    Now I would like to talk about LCS.
    Mr. Secretary, at the time that the 90-day stop-work order 
was issued for LCS 3, you told the committee that you were 
targeting 45 days for the review. And that time, of course, has 
now passed.
    What is the current status of your review, and when do you 
expect to resolve the stop-work order? And is the Navy Program 
Management Assist Group's assessment complete?
    Secretary Winter. Sir, we have made, I think, very good 
progress, in terms of the overall assessment. There are a few 
other data requests that I had made and a few additional 
briefings that will take us on through the better part of next 
week. But that should complete the period of assessment.
    And I believe that, with the data that I am being provided, 
at that time we will be in a position to make a rapid 
assessment of the appropriate courses of action for at least 
the flight zero, the first four of the LCS vessels. I intend to 
take that immediately to the under secretary for acquisition, 
technology, and logistics (AT&L) and the Deputy Secretary of 
Defense, get their approval, and then come back here to you, to 
Congress, to inform you of what I would like to do on the LCS 
program.
    Mr. Saxton. Do you have a timeframe by which you will be 
able to make that information available to us?
    Secretary Winter. Sir, I expect that that will be in the 
next two to three weeks.
    Mr. Saxton. Very good.
    Let me go on here a little. A highly puzzling set of press 
stories on the LCS program appeared yesterday, in which ``high-
ranking Navy sources'' first predicted the second LCS ship 
being built by General Dynamics at its Austal shipyard would 
cost in the neighborhood of $350 million, which is close to the 
estimated cost of the LCS 1, being built by Lockheed Martin.
    Then later in the day, we saw a sort of retraction, 
implying the Navy misstated the cost estimates of both LCS 1 
and LCS 2 and is apparently unsure of what the General Dynamics 
ship will cost.
    Please help us understand, is the second contractor's ship 
coming in at costs similar to LCS 1, which led you to issue the 
stop-work order? Or is the Navy again unaware what the true 
cost is for the ship that is approximately 40 percent complete?
    Secretary Winter. Sir, we are watching it very carefully. 
As you have just indicated, LCS 2 under construction under 
General Dynamics' prime contract is only 40 percent complete, 
as opposed to LCS 1, the Lockheed vessel, which is around 75 or 
80 percent complete at this point in time.
    We obviously have a little bit better understanding of the 
cost posture on LCS 1 as a result of that advanced stage.
    On LCS 2, the indications right now are that there are some 
increases in cost. But we have not seen anything approaching 
the numbers that were indicated in the press. The numbers are 
significantly less than that. But it is a matter that we want 
to watch very carefully.
    I would also note that we have not seen certain specific 
issues that have been problematic with LCS 1. We do not have an 
issue with the reduction gear. LCS 2 also is manufactured 
principally out of aluminum as opposed to steel and, as a 
consequence, has experienced less of a cost growth in raw 
materials. And also, because LCS started a bit later, it has 
not suffered from the same degree of concurrency in the design 
and construction activities.
    We are hopeful that those factors will contribute to a 
lower cost than we are experiencing on LCS 1. We will watch 
this very, very carefully, sir. And I expect to get further 
cost estimates in the week to come.
    Mr. Saxton. What is your current estimate of the cost of 
the first LCS ship?
    Secretary Winter. At this point in time, we believe, 
assuming we are able to continue the current progress, in the 
$350 million to $375 million range.
    Mr. Saxton. Finally, if both contractors' ships appear to 
experience cost growth, are you concerned that the problem may 
lie with how the Navy is managing the program?
    Secretary Winter. I think the cost growth is due to several 
factors. First of all, a general over-optimism at the beginning 
of the contract, regarding both cost and schedule. And that was 
exacerbated, if you will, by the use of a cost-reimbursable 
contract. This was further complicated by some limitations in 
Navy oversight and some performance issues on the part of the 
contractors.
    That is something we are going to have to look at. And, in 
particular, in terms of future acquisitions, I expect to make 
some significant changes to the overall acquisition process.
    Mr. Saxton. Thank you, Mr. Secretary.
    Mr. Chairman, I have some other questions, but I will be 
glad to withhold them until later in the day.
    The Chairman. You bet. Thank you very much.
    The gentleman from Mississippi, Mr. Taylor, Gene Taylor.
    Mr. Taylor. Thank you, Mr. Chairman.
    I want to thank all of you gentlemen for being here.
    Secretary Winter, I am, for one, particularly disappointed 
in the whole design build concept. I think it has been a 
miserable failure. I think it is completely contrary to the 
investment our Nation makes, starting with sending young people 
to Annapolis, working on their advanced degrees. It completely 
ignores the life skills that these young ensigns, who become 
lieutenants, who become commanders, who become captains--they 
are the ones who ought to be coming up with the plans for the 
next generations of ships.
    And I would hope that you would take to heart the failure 
of this program, not let it be repeated in the Destroyer 
(Experimental) (DD(X)) program or any other program.
    I am also disappointed--although I understand you have to 
tow the company line, as an appointee of the President--that 
once again the President of the United States is asking for 
seven ships. Even in the best of times, when ships lasted for 
30 years, seven times 30 would translate to a 210-ship fleet.
    Given that many of these ships, including the coastal 
minehunters that are included in your testimony, the block-1 
cruisers, are being retired at less than 20 years, this 7-ship 
acquisition times 20 would lead us to about a 140-ship fleet. 
And that is unacceptable.
    I am very pleased that our colleague on the Appropriations 
Committee has expressed an interest in trying to fund 12 ships 
this year. If the Bush Administration won't ask for them, then 
Congress is going to fulfill our constitutional responsibility 
to build a navy.
    Given the willingness of the appropriators to make that 
happen, given that you have only asked for five, if we are able 
to find the funds--which is going to be a challenge; we are 
going to have to find about $5 billion--what would you like to 
see those other five ships look like?
    Secretary Winter. Congressman, thank you for the question.
    If the additional funds are made available--and I have to 
emphasize that, because I think within the current funding we 
have made a proper optimization of the overall department's 
budget. But if the additional funds are available, I will note, 
first of all, that CNO has indicated his highest priority is 
for an additional LPD-17.
    And I would support that from a requirements perspective, 
although I will note that it may create some issues in terms of 
the workforce availability down at Pascagoula, given the post-
Katrina issues that have been faced by that yard.
    Mr. Taylor. Let's worry about the fleet.
    Secretary Winter. Yes, sir.
    Mr. Taylor. We will make everything else fall in place.
    Secretary Winter. I understand.
    Mr. Taylor. Good.
    Secretary Winter. The second item that I would note, 
perhaps the easiest one to work, would be to accelerate the 
additional production of T-AKEs. We have, in the past, produced 
those at a two-a-year basis. The current plan is a one-a-year 
basis. And so, given the yard capability there, accelerating 
that production back up to two would appear to make sense.
    One of the other areas of particular interest, I recognize, 
on the part of many of the members of this committee, has to do 
with the Virginia class. There we are right now at a one-per-
year production rate with a plan to go to two a year in 2020.
    The Virginia-class submarines require us to start with a 
two-year advanced procurement, to be able to provide for the 
nuclear power plant that supports them. So we would need to 
start two years in advance. What that says is, if we were able 
to start in 2008 with advanced procurement, we could 
accelerate, potentially, the two a year to 2010.
    I would make two specific requests, however, relative to 
any acceleration in Virginia class. First of all is we have 
been working very, very hard to provide a degree of stability 
for the shipyards. If we are going to go to two a year in 2010, 
we really need to go to two a year for 2010, 2011 and out from 
there on. We don't want to go to two a year and then back to 
one a year. I think that would create too much stress into the 
workforce there.
    The other thing is that we do need to have multi-year 
approval on the Virginia class to be able to achieve the 
efficiencies that we are looking for, in terms of that class of 
vessels. And that multi-year would have to encompass any 
additional vessels here.
    Mr. Taylor. Commandant, your force has taken a very 
ambitious stance toward the MRAP. It is my understanding that 
they are going to try to have 4,000 of those vehicles in the 
inventory sometime around the first of the year.
    I want to applaud the Marines. I would hope that you would 
encourage your colleagues in the Army to work with you on that. 
And I would ask for your personal involvement in this, to see 
that the ambitious goals that have been set by the Marines are 
fulfilled.
    General Conway. You have it, sir.
    Mr. Taylor. Thank you, sir.
    The Chairman. Thank you.
    Mr. Forbes, the gentleman from Virginia.
    Mr. Forbes. Thank you, Mr. Chairman.
    And, first of all, let me thank you, Admiral and General 
and Mr. Secretary, for the great job you do in defending our 
country and keeping us free.
    As you know, I have the privilege of serving with my 
colleague from California as one of the co-chairs of the Navy-
Marine Corps Caucus. She is a great champion for your issues.
    And we understand that--and we respect your integrity, 
first of all, as you come before us and thank you for that. We 
also know you have enormous competing demands that you must 
reconcile. And we just wish we had a day that we could do 
nothing but bring in all the wonderful, good things that you 
do, so that we could make sure that they were clear to the 
American people.
    But today, I would like to ask you just three questions, 
and I will just throw them out there and then see if you have 
time to answer them.
    One of the things that continues to just worry me is what 
we are seeing with asymmetrical warfare challenges, especially 
situations like we had with the Cole and the recent anti-
satellite test (ASAT) situation from the Chinese and looking at 
the destruction of our communications capability.
    And the first question I would ask you is, do you feel 
comfortable with our response to those asymmetrical threats? Is 
there anything that we don't have in the budget that you need 
to be able to deal with those threats, number one?
    The second one, I continue to be concerned--and I know it 
is just a difficult situation--but how we deal with the 
escalating cost of ships. We are continuing to price ourselves 
out of the market. That is something that I know requires a 
partnership, that we kind of put our arms around and see what 
we can do. Is there more that we can do in that area?
    And the third thing--and, General, this is yours--with the 
MRAP, as Mr. Taylor mentioned, I know that we have got a 
shortfall there. And if you get the funding for that, are you 
able to obligate that funding in 2007? And the last part of 
that, how are we working to make sure that the interoperability 
of those units function?
    And so, with those three questions I would just ask your 
insight.
    Admiral Mullen. Thanks, Mr. Forbes.
    On the asymmetric piece, and, clearly, in some of the 
previous testimony today, there has been discussion about force 
protection. And that generally, these days, is focused on 
ground forces. But it is equally of concern to me, and Cole 
would be an example of that. And we have continued to invest in 
the technology and in the procedures and exercises, if you 
will, to make sure that we get that right for the future.
    We are going to talk, probably a lot, about LCS today. But 
LCS, the urgency of that need was generated by the Navy because 
of the asymmetric kinds of threats that it can address, not 
exclusively, but it clearly allows us to address, for instance, 
the waves-of-small-boats kind of attacks that could be loaded 
with explosives, as well, as an example.
    And so, we are working on the Navy side to transform how 
our people are trained and what their skill sets are for the 
future, how our ships are both put to sea and the technologies 
that are inserted in them, as well as expanding from the blue 
water to the brown water, which gets to--we are deploying our 
first riverine squadron literally this month to Haditha Dam to 
relieve the Marines. But we have not got three squadrons, and 
you have supported that well, and we need that continued 
support.
    So there is a people piece of this, a capability piece, and 
a technology piece. Which we find ourselves in the middle of 
transforming, literally, in so many ways, to meet the threat.
    Networks are also a concern and how we operate with them 
and without them, for instance, is another one.
    So your concern is well-founded. We are in pretty good 
shape in this budget, with respect to the investment to get 
where we need to go.
    Secretary Winter. Sir, regarding the escalating cost of 
ships, I would just identify three specific items that we are 
trying to work on right now, one of which is the stability to 
plan.
    And you heard today that we are very pleased that the 30-
year ship-building plan that we just submitted to you is the 
same exactly in 2008 and 2009 and almost the same in the out-
years as what was submitted last year. And this gives the 
industrial base the opportunity to properly plan for those 
activities.
    Second of all, we are making a greater attempt to stabilize 
the requirements. We clearly need to make a great investment in 
working these requirements up front, so that we have a 
definitive set of requirements before we start a program and 
then we manage any changes very carefully once the program has 
initiated.
    Third, we are looking very, very hard at the actual 
contract process here. And, in this regard, I fully expect that 
we will make a material change in our contracting approach, 
going further in terms of the requirements maturation process 
before we go into the actual construction, and then use a 
different contract vehicle, most likely a fixed-price incentive 
contract vehicle, for the actual construction phase.
    Relative to the MRAP activity, I will just say that we are 
initiating activities with nine vendors to acquire test 
articles so that we can develop a great industrial base than we 
have currently used to date. And these additional test articles 
will be used to evaluate both the operability characteristics 
and the survivability characteristics of their proposed 
offerings and give us the opportunity to flex in terms of our 
production capability as the requirements continue to evolve.
    The Chairman. I thank the gentleman.
    Dr. Snyder from Arkansas.
    Dr. Snyder. Thank you, Mr. Chairman.
    I wanted to ask several questions but one quick question to 
our service chiefs, Admiral Mullen and General Conway.
    Starting with you, Admiral, and you can answer this very 
briefly: Goldwater-Nichols did a lot of good things. There are 
some that feel we need to revisit--there is a lot of 
frustration in this town and country about our acquisition 
process and procurement process.
    Do we need to revisit the provisions in terms of the 
participation of the service chiefs in the acquisition process?
    Admiral Mullen. The short answer is yes. Although, clearly, 
in the team that I am in right now with Secretary Winter, the 
service chief is very much included. But that is because of 
this leadership team. It isn't always the case, in terms of 
service chief inclusion from beginning to end.
    Dr. Snyder. Statutorily you have some restrictions, in 
terms of being in the sign-off process on some of the 
acquisitions.
    Admiral Mullen. Yes, sir.
    Dr. Snyder. Is that the problem?
    Admiral Mullen. Yes, sir.
    Dr. Snyder. General Conway, have you formed an opinion 
about that issue?
    General Conway. Sir, I agree with the CNO. That has been my 
observation in the short three months.
    Dr. Snyder. And, again, a question for our service chiefs: 
There is a lot of attention, and will be on months and years to 
come, on the events at Walter Reed and the fact that--I think 
probably driven by medical holds, people get past their acute 
phase but then weeks and months go by as things are trying to 
be determined by outpatient care.
    Have you all looked at what is going on at Camp Pendleton 
and other places and the different hospitals that you all are 
responsible for, in terms of being sure that you don't have 
similar situations of people being, kind of, caught in a limbo?
    Again, Admiral Mullen and General Conway.
    Admiral Mullen. Certainly the articles that have been out 
there and this issue, which has been widely spoken to, was a 
concern to me immediately. Although I personally have made many 
visits to Bethesda and have not seen those kinds of things.
    That said, we did take a very rapid look to see if we have 
the same problems, and we don't. We have very few that are in 
that after-care kind of--on the Navy side, and I will let 
General Conway speak for the Marine Corps.
    That said, the secretary has directed an assessment over 
the next couple of months to make sure that through the 
Department of the Navy institutions that we have this right. It 
is a big organization, and we want to make sure that we get it 
right for those who serve so nobly and, when they get hurt, to 
make sure they are cared for exceptionally well throughout the 
system.
    Dr. Snyder. General Conway? And, of course, not just at 
Bethesda. You have got medical facilities at Camp Pendleton. 
Have you all looked at this issue?
    General Conway. Yes, sir. And it has been one of my 
priorities, sir, in the short time, again, I have been the 
commandant, to get around and visit these facilities.
    And I think what is being presented with regard to Walter 
Reed is an anomaly. I don't see that same kind of issue 
anywhere else in the country in the hospitals that I have 
visited.
    And I would add that Marines who go to Walter Reed for 
treatment do not stay in Building 18, but they are generally 
pretty pleased with the quality of the work, primarily 
prosthetics, that they receive there.
    Dr. Snyder. The issue that has been of concern--we had this 
several years ago with reserve component folks--is when they 
get in some kind of a medical hold status. Everybody agrees the 
acute case is excellent. It is what happens after that. And I 
assume you all have a process of making sure you don't have 
enclaves of people at Camp Pendleton or other places that----
    General Conway. Sir, we are creating in the Marine Corps 
what we call the Wounded Warrior Regiment, with battalion 
headquarters on both coasts, that are going to get after the 
organization aspect of what you are describing. The battalions 
in particular will have a tracking responsibility for Marines, 
wherever they are in the country, be it in a hospital, be it on 
convalescent leave, perhaps even if they are out of the service 
and have needs. We want to understand what those needs are and 
try to match up the generosity we see in the country with these 
people.
    Dr. Snyder. We need you to keep us informed about that.
    General Conway, one final question. I have heard the 
description of what is going on with our troops in Iraq now is 
that you, the troops, our fighting men and women, are like the 
offensive line in a ball game, but other government agencies 
are like the backfield.
    A high-ranking officer described it to me, ``It is great, 
great people, but it is like we have got soccer players coming 
in that weren't really trained and equipped to play football,'' 
that the State Department and other agencies are really having 
trouble fielding the kind of team that you all need to be doing 
the redevelopment and political stuff.
    Is that a fair metaphor for what you are seeing in western 
Iraq?
    General Conway. Sir, I think it is close. My concern is 
more with quantity than quality. Those individuals that I 
worked with in Iraq really were pretty good at what they did; 
there just was not nearly enough of them from the various 
agencies.
    Dr. Snyder. Not enough, yes.
    Thank you.
    The Chairman. I thank the gentleman.
    Before I call on Mr. Kline, let me ask Secretary Winter: As 
I understand it, the Navy seeks to cut 901 medical personnel, 
100 of which are doctors. Is that correct?
    Secretary Winter. Sir, are you referring to the civilian 
conversion process?
    The Chairman. Yes.
    Secretary Winter. I don't know the exact numbers offhand, 
but that sounds directionally correct.
    The Chairman. Well, think on these things. We will discuss 
it a bit later. All right?
    Secretary Winter. Yes, sir.
    The Chairman. Mr. Kline.
    Mr. Kline. Thank you, Mr. Chairman.
    Thank you, gentlemen, for being here.
    I have so many questions. But I want to pick up where Dr. 
Snyder left off, if I could, General Conway, with the Wounded 
Warrior Regiment.
    I heard you explain this at an earlier caucus briefing or 
something a couple weeks ago. I think it is a terrific idea. 
But we clearly have a horrific disconnect in our care for 
soldiers and Marines that are coming back from Iraq. And 
sometimes it is in the hand-off between the Navy-Army medical 
system and Veterans Affairs (VA).
    We had just a horrific, tragic case occur in Minnesota in 
the last few weeks. A Marine reservist had been to Iraq, come 
back, had difficulties, was in the V.A. medical system, and yet 
he committed suicide. And the V.A. has got an I.G. 
investigation going now, as they should, to see if there is 
something, a process particularly, that needs to be corrected.
    And so, I am very excited about this Wounded Warrior 
Regiment and the battalions.
    The question is, not for you to explain the whole system--I 
think it is terrific, and if you would like to add anything you 
can--but is there something that you need from us? Money I am 
sure, but if there is something you need from us in the way of 
statute or authority or anything we can do to make that better, 
because if it is in my head what is in your head, it is 
absolutely the model for what we should be doing in all the 
services everywhere.
    What do you need?
    General Conway. Sir, I have taken a brief at Quantico about 
two weeks ago, and there were some costs associated with the 
requirement. It involved principally new construction. And I am 
just not sure, at this point, that we have to have what is 
being requested in order to satisfy the requirement.
    We selected this week the commanding officer of the 
regiment. He is a regimental commander currently in Hawaii, 
coming this way. I am going to toss this football to him and 
have him to give me a second analysis, if you will.
    At this point, I think we can field the requirements within 
our own resources. But I would like to put a raincheck on the 
table and say we might be back to you asking for some more.
    Mr. Kline. When you say field it, when do you expect this 
to take place? You have got the regimental commander inbound; 
he is obviously not briefed up and ready to go yet. When will 
you have these two functioning battalions----
    General Conway. Sir, I think by the end of spring we will 
be fully operational. Elements of it are in place right now in 
our wounded warrior barracks on both coasts. And I suspect, at 
least in one case, a lieutenant colonel operating there will be 
named as that battalion commander, simply because of his 
expertise.
    What we will need are the organization aspects of assigning 
our wounded Marines to a battalion headquarters, the 
methodology for checking on them weekly and that manner of 
thing to see what their needs are.
    I think where we drop, sir, is really when a Marine goes 
out on convalescent leave. And he then has to go to the local 
medical facility for his treatment. There is not a Marine in 
the chain. I don't know that they receive the priority we would 
like to see them have. And those are some of the things we are 
going to work on.
    Mr. Kline. Well, I think it is absolutely outstanding. And 
if it does not continue the tracking through convalescent leave 
and then as they are taken up in the V.A. system, then it will 
not have done what I think you have in mind and certainly what 
I have in mind.
    General Conway. I agree with you.
    Mr. Kline. We owe it to these Marines, to all the service 
men and women, we owe it to them to make sure they are not 
falling through the cracks. And clearly, they are falling 
through the cracks.
    It has been my belief for a long time, maybe because I 
served all my life on active duty, that when the Marine stays 
on active duty he has got a family there with him, he stays, in 
the case of the Marines, in the Navy medical system, and he has 
got a lot of support built right in. It is the Marine 
reservists and the Marines who are leaving where the problem 
occurs.
    And if this Wounded Warrior Regiment does what you have 
envisioned, I think it is terrific, and I hope it will be the 
model for everyone.
    And, Mr. Chairman, I have a lot of questions having to do 
with reset and MV-22s and things, but I will just defer them 
and yield back my time. Thank you.
    The Chairman. I thank the gentleman.
    The gentlelady from California, Ms. Davis.
    Ms. Davis of California. Thank you. Thank you, Mr. 
Chairman.
    Thank you to all of you for being here, Mr. Secretary, 
General Conway, and Admiral Mullen.
    And I just wanted to thank you, as well, for being so 
responsive to the Navy-Marine Caucus. I appreciate the kind 
words of my colleague, Mr. Forbes. And that does give us a 
chance to, really, in a very informal way, not quite this 
setting, to talk about the issues that are of concern to all of 
us. And I appreciate that. Thank you.
    I wanted to turn for a second, General Conway, because I 
have actually had some concerns about the battalion aid 
stations at Camp Pendleton. And so, I would just ask you to 
take a look at that.
    One of the concerns is that the corpsmen there do not have 
access to the technology that they need to track many of the 
Marines there. And the other concern is that they are using 
Marine Corps dollars as opposed to Navy medical dollars to 
treat many of the folks there. And if you could take a look at 
that, that would be helpful.
    General Conway. I am sorry, can you clarify? Are you 
talking battalion aid stations in the various regiments, or are 
you talking about the hospital per se?
    Ms. Davis of California. Well, we are hearing this from the 
corpsmen at Camp Pendleton.
    General Conway. Okay. Got it.
    [The information referred to can be found in the Appendix 
beginning on page 164.]
    Ms. Davis of California. Thank you very much.
    I think the other concern, really, is the fact that--I 
think that the chairman has touched on it--that, in fact, we 
are decreasing medical professionals and the numbers in the 
Navy, while the Marine numbers are going to be going up.
    And I am wondering how that increased requirement, really, 
on the Navy is going to be played out as the Marines will have, 
certainly, more need for medical, even chaplains, in the 
services that are going to be required.
    How are you dealing with that balance, if you will?
    Admiral Mullen. From the medical perspective, I think the 
concern is a legitimate concern. And I just actually returned 
earlier this week from a trip out in Lemoore, California, near 
Fresno, which we have a big naval air station there. And there 
is concern about the ability to hire certain specialty skills 
in that area if we were to convert. We are actually short out 
there in some of the specialties right now.
    So I think we have to be very careful about how much 
military/civilian we do. And as we do it, we are very precise 
in making sure that, as we distribute those conversions, they 
are distributed in a way where we can actually hire the care, 
have the skills on the medical side that would be able to take 
care of our troops and their families.
    And that is probably my biggest concern writ large across 
all the medical kinds of capabilities that we----
    Ms. Davis of California. Is it also a legitimate concern 
that, in fact, the Navy is having difficulty recruiting 
physicians, bringing people I guess into the pool essentially, 
to go on and perform that very important----
    Admiral Mullen. There are some key areas that we are 
experiencing difficulties in: anesthesiologists, general 
surgeons, psychologists, psychiatrists, to name four. There is 
one more, I just can't recall what it is right now.
    And we have been supported before and asked for support 
this year for expanding the bonus incentive pool to attract 
these kinds of individuals for scholarships and also to retain 
the ones who are with us right now.
    Ms. Davis of California. Well, I think, in that regard, we 
are all interested in how we can be more helpful to try and 
help out in that area.
    If I could turn for a second, I know that we were 
discussing yesterday the role that many of our airmen are 
playing in lieu of positions. And you mentioned and we all know 
how magnificently the Marines are performing. And, in many 
ways, they are essentially in their role there. But I think for 
some of the Navy, perhaps, not necessarily in what they 
actually were trained to do.
    Could you respond to that? And are we putting people in 
positions that puts them more at risk because of that training?
    Admiral Mullen. Certainly being in a combat environment 
ashore where a war is going on, versus being at sea, there is 
more risk.
    We have generated a tremendous amount of effort to make 
sure they are trained for where they are going. And the Army, 
in particular, has worked with us very carefully. And our 
training is conducted down at Fort Jackson. And I visited there 
and have been impressed with the--getting our people trained 
right.
    I just, as I indicated in my opening statement, came back 
from overseas, was ashore. The Navy has got over 5,000 sailors 
on the ground in Iraq right now in combat support and combat 
service support roles. They are using about 80 percent of the 
skills they have in the roles in which they are functioning. 
So, by and large, we are taking advantage of their skill set. 
Obviously it is a different environment.
    They have had a big impact. General Conway will tell you 
that; General Schoomaker will tell you that; I get that 
feedback all the time.
    Ms. Davis of California. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    That is in addition to the 7,500 that the Air Force has 
doing Army duties?
    Admiral Mullen. Well, I have got 10,500 on the ground--I am 
sorry. I have got almost 13,000 on the ground in CENTCOM AOR. 
That is Iraq, Afghanistan, the Horn of Africa, throughout. So 
it is in addition to, clearly, the ones that the Air Force----
    The Chairman. Hopefully the increase in the size of the 
Army and the Marines will help put more of them at sea.
    Mr. Conaway, to be followed by Mr. Courtney. Mr. Conaway of 
Texas.
    Mr. Conaway. Thank you, Mr. Chairman.
    I am assuming from your opening remarks that you are trying 
to get a carrier based down in the Missouri River. [Laughter.]
    The Chairman. We are working on it.
    Mr. Conaway. Okay, good. You and Madam Bordallo are neck 
and neck for the next carrier.
    The Chairman. I claim seniority on that one. [Laughter.]
    Mr. Conaway. I like your position.
    Thank you, gentlemen, for coming.
    A couple questions on the BRAC funding that was--the 
continuing resolution that was stripped out, the impact that 
that is going to have on those issues as it relates to the 
Navy.
    The F-35, lengthening out when we are going to take 
delivery on that, what impact that has on our carrier wings and 
how we are going to maintain all the airplanes we need for the 
carriers that we have got.
    And then, Mr. Secretary, the tension that I think is always 
there between what is on the unfunded list and what is in the 
baseline, and how do you mitigate, or at least tell us you 
mitigate, how you put things in the baseline that you have to 
have and you put things on the needs list that are not 
necessarily wants but don't fit in the have-to-have category.
    Because there is a game we can play by putting the things 
that you know we will fund on the needs list and funding things 
that you want in the baseline budget.
    Could you talk to us a little bit about that tension and 
how you mitigate that?
    Secretary Winter. Let me go through these rather quickly 
here, if I could.
    On the BRAC, there is about a $3 billion DOD shortfall. The 
allocation of that will be made by the OSD, the secretary of 
defense. We have not seen the specific allocation yet, so it is 
a little hard for us to assess the specific impacts it will 
have. It is likely to have an impact on our ability to meet the 
prescribed schedule in the BRAC law. The extent of that and the 
particular areas it would impact I can only speculate on at 
this point in time.
    In terms of the joint strike fighter (JSF) program, the F-
35 program, we are watching that very carefully. We are 
managing that very carefully.
    As you probably note in the budget request, we have six of 
the STOVALs requested for 2008. We are looking for the first 
flight of the STOVAL configuration coming up here in June of 
2008. That will give us the opportunity to go ahead and 
initiate the first phase of the procurement after that. We are 
roughly two years away, at this point in time, from the 
projected first flight of the carrier version of that.
    We are managing that activity very carefully. We are 
looking at what is a prudent acquisition strategy there, given 
the current, as-experienced development schedule for JSF and 
also looking at the budgetary constraints on the overall top 
line.
    We are dealing with some of the shortfalls there based on 
the continuing acquisition of the Super Hornet line. And I 
would like to say a ``no comment'' on the overall impact of 
that, and then perhaps we can get back to the baseline budget, 
unfunded priority list after that.
    Admiral Mullen. I just want to strongly reaffirm the need 
for that airplane. It is a very critical airplane to us. And I 
am anxious to have it deliver on its current schedule and at 
its current cost.
    In the interim, we clearly have accepted some risk, in 
terms of a shortfall in our F-18 inventory. And, in fact, on 
the reset requirement, the supplemental, we have asked for 
additional F-18s. Because our oldest F-18s are now, on average, 
our legacy F-18s are 16 years old on what is typically about a 
20-year expected service life.
    And we are buying F-18s E's and F's, which were the new 
versions now, and there is a balance between purchasing those 
up to a point and getting them in the fleet until we start JSF. 
And there is tension there and trying to keep that balance 
where we are.
    I have got additional F-18s that I have actually put in the 
program to mitigate what looks to be about a 50-aircraft 
shortfall in the strike fighter world that I can predict right 
now, based on when JSF comes in.
    General Conway. Sir, I would like to go back to your first 
question, if I can, and comment on the continuing resolution.
    For my service, it is absolutely critical that we get that 
through. We, for two decades probably, have consciously not 
been able to prioritize barracks and living spaces for our 
Marines in lieu of other things that we simply had to have.
    We find ourselves, at this point, pretty much against a 
wall, with a lot of our troops living in barracks that were 
built during the Korean era. We have a 108-barracks program 
through 2011. It will bring us to a two-man room standard, not 
one, which I think is helpful in terms of conserving resources. 
But we really do need that kind of support.
    Secretary Winter. Relative to the baseline budget and 
unfunded priority list, I would just--we can discuss that 
later.
    The Chairman. I thank the gentleman very much.
    The gentleman from Connecticut, Mr. Courtney.
    Mr. Courtney. Thank you, Mr. Chairman.
    I would like to thank the witnesses for being here today.
    Admiral Mullen, in the appendix of your testimony, you had 
some comments regarding the new submarines which have most 
recently been produced, the Texas and the Hawaii.
    I actually visited the Texas back in December, down in 
Groton, and, like you, was very impressed with the quality of 
the boat and also the crew and the officers there.
    The Hawaii was actually going down the Thames River, being 
delivered ahead of schedule, just a little bit, but nonetheless 
still ahead of schedule.
    And I think the folks down there are very proud of the fact 
that there is a good story to tell the taxpayers about what is 
happening with the Virginia class. That last sub was produced 
with hundreds of thousands of fewer man-hours than the subs 
that preceded it.
    And I just was wondering if you wanted to comment for a 
moment about whether or not--I mean, obviously there are issues 
like energy costs, which are beyond the control of anyone, it 
seems, these days. But in terms of at least that program, I 
mean, it really does seem that we are making great strides in 
terms of getting closer to that target of a $2 billion 
submarine. Would you agree?
    Admiral Mullen. Yes, sir. We clearly are. Both the 
secretary and I have sat recently with the program manager and 
have great confidence in him and the program executive officer 
(PEO) that are directing this program. And it is clearly a 
joint effort with industry in this. This is a very proud 
shipyard. I have visited it before; I know what they do. And 
they are on a path right now to make this work, so we can get 
to a submarine which is at $2 billion and get to two in fiscal 
year 2012.
    And when I also think about this, obviously I have to think 
about cost, but I also think about this great capability. We 
need this capability out there. Texas and Hawaii and North 
Carolina to follow--those are all critical assets for us in the 
future.
    Mr. Courtney. Admiral Haney actually just finished with the 
test runs on the Hawaii and was absolutely ecstatic about the 
performance of that ship.
    Admiral Mullen. Well, I hope to get to sea on her pretty 
soon.
    Mr. Courtney. Right. But going back to your initial 
testimony, written testimony, where you talked about the fact 
that even in the last year there has been some changing threats 
across the globe. And one of them, obviously, is the Chinese 
navy's aggressive plans to increase submarine production.
    And looking at the Navy's own stated goals of a 48-ship 
fleet, I mean, at some point, when you do the math, as Mr. 
Taylor did earlier, it is clear: If we wait until 2012 to go up 
to two subs a year, we are going to dip below 48 ships for a 
fairly substantial period of time.
    And I am just wondering how, given the demands already on 
the submarine fleet, how we are going to juggle that need with 
the changing situation, again, that you identified in your 
testimony.
    Admiral Mullen. Sure. I talked about the criticality of the 
asset. If you look--and I am sure you have--at that 30-year 
ship-building plan, you can see that from about 2020 to 2034 or 
so, based on getting two in fiscal year 2012, we will be below 
48 submarines.
    As I have previously testified, it is up to me to figure 
out how to mitigate that shortfall operationally, which is 
really the critical piece. We have recently completed a review 
looking at four different ways to do that, which would include 
things like building the Virginia submarines of the future in 
less time; changing our operational tempo, not unreasonably but 
in ways that would mitigate the shortfall forward, which is 
where you really want to be able to focus; and looking at 
possibly extending the service life of existing submarines, 
which has already been done once.
    And, actually, I am encouraged. And if we were to do some 
of that, some or all of that, we would greatly mitigate the 
years in which that shortfall would occur.
    Mr. Courtney. Well, again, like Mr. Taylor, I am hoping 
that we can help you find a way to fill that gap. And certainly 
we feel that this program, again, is poised to move up its game 
and it really is ready to take on a different building 
schedule, as the secretary described earlier.
    Admiral Mullen. Sir, I wouldn't push back on that at all, 
except to say that, as we look at this gap, as the secretary 
said, between now and 2012, that can be a bill as high as $5 
billion or $6 billion to me inside the program. And we have 
worked very hard to stabilize this. And that can, if I have to 
pay that bill and come up with those resources, very badly 
destabilize that shipbuilding and conversion, Navy (SCN) plan.
    Mr. Courtney. I see my light is on here, so I am just going 
to ask real--was that the gavel? Okay. [Laughter.]
    Thank you. I will follow up later with some additional 
questions.
    The Chairman. Thank you.
    The last person on the before-the-gavel list is Mr. 
Cummings. Then we go to the after-gavel.
    Mr. Cummings.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    I don't know how many of you all saw the Bob Woodruff piece 
on ABC News, but it was one of the most chilling things I have 
even seen, when he talked with people who had been brain-
damaged in some way or another.
    And, you know, when I think about all the things that we 
are doing trying to recruit, one of the things that I think 
that is so important to recruiting is for people to know that 
if they go into battle they are going to be equipped, they are 
going to be trained, and if they are injured, that they are 
going to be treated with the best of care.
    One of the issues that came up during the Woodruff piece 
over and over again is that the soldiers might have brain 
damage; then they get treated, and they are treated pretty 
good. But then when they need follow-up and they go back to all 
of these rural areas, the care is not there.
    And I am telling you, I just think that--and I am just 
wondering, what are we doing about that?
    I heard you, General Conway, talk about prosthetics and 
that your people were very pleased about, you know, if they 
were injured, they were taken care of.
    But I am talking about this, something that--and a lot of 
these people had kids. And they were basically on--they had one 
fellow on a farm, and there was just no way to get treatment. 
And it was clear that it was not an isolated incident.
    And I guess I just want to make sure that we are doing the 
right things by our veterans--not veterans, but, you know, 
folks that are injured. And I just want you all to comment on 
that, please.
    General Conway. Sir, I will comment. Your instincts were 
exactly right. I think, within the service and within the 
hospitals, certainly Bethesda but to include Walter Reed and 
other major facilities, we are doing pretty good. We may be 
understrength some in our psychologists and psychiatrists, but 
the counseling and that type of thing is a priority and is 
being worked pretty well.
    As I commented, though, to Congressman Kline, I think that 
when that young Marine or soldier goes out to the farm, he is a 
long way away from that kind of support. The immediacy of the 
need, the availability of the counseling--they get it, but they 
get it on a schedule months away. And I think it is widely 
believed that the sooner you get the counseling, the sooner you 
are going to get well. And there is a window there that should 
be taken advantage of.
    So it is a shortfall. I don't know exactly how to address 
it from a service perspective, except to identify it and 
request that those follow-on agencies do a better job in 
providing counseling.
    Mr. Cummings. General Winter, did you have a comment?
    Secretary Winter. Sir, one of the items that we have put as 
a core aspect of the assessment that we are conducting internal 
to the Navy relative to this continuing care is to make sure 
that we have an understanding of how that care continues during 
and after various transitions of responsibility.
    And I think many of the issues that you are addressing here 
right now, very correctly, are part of what we are trying to 
get at.
    We think we have got a basic process established. We want 
to make sure that we are providing the best possible care. They 
deserve it; there is no question about that. We need to make 
sure we understand where and where we are not achieving the 
expectations.
    Mr. Cummings. I think that program probably did substantial 
damage to recruiting efforts. You know why? Because it looked 
as if the person goes out there, he fights for his country, 
gives it everything they got; when they are injured, they are 
left alone. And I am just telling you, that is how it came off.
    And I talked to my staff and so many other people about it. 
And the reason why I am bringing this up is because we can sit 
here and we can talk about--first of all, I applaud our 
military for all you are doing.
    But I am telling you, I am on the Naval Academy Board of 
Visitors, and when I sit with those young people this Monday 
after the board meeting and I look at those wonderful, 
brilliant, young people, I want to make sure that when they go 
on that field, go out there, that they are equipped, that they 
are trained and have got the best equipment possible.
    Last question: As far as head injuries, is there anything 
else we can do? I know about the Humvees and all that, but, I 
mean, as far as head equipment? Is there anything that you 
need? Where is the technology with regard to that?
    And then I will----
    General Conway. Sir, one of our largest research and 
development (R&D) efforts, at this point, is to find a helmet 
that will take on a 762-caliber round and defeat it. And we are 
trying to look for that lightweight composite material that 
will give us that capacity.
    People who work it say that, you know, we may be able to 
develop something, but at a 90-degree point of impact it will 
break the man's neck. Well, that is better than the injuries I 
see week after week at Bethesda and Walter Reed.
    Mr. Cummings. Thank you very much.
    The Chairman. I thank the gentleman for his inquiry.
    May I ask, for the record, Mr. Secretary, as I understand 
it, there is an ongoing study of blast injuries on the brain at 
Bethesda Navy Hospital? A Dr. DeGraba is working on that issue.
    May I make a formal request for an update of that study and 
the funding prospects and your recommendations for that 
continued study? The little I know about it, it is very, very 
important, and it is just along the line of what the gentleman 
from Maryland, Mr. Cummings, is inquiring on.
    Would you do that for me, make a note?
    Secretary Winter. Mr. Chairman, I would be pleased to 
arrange that.
    The Chairman. I would appreciate it very much.
    Mr. Bartlett from Maryland.
    Mr. Bartlett. Thank you very much.
    Thank you, gentlemen, for your service to your country and 
your testimony.
    I am a farmer, and the cattle on our farm are frequently 
constrained by electric fences. And I have watched them. And 
they touch the electric fence just once. I have never seen a 
cow that needed a second experience to convince them that they 
should stay away from the electric fence.
    We have had a lot of different classes of ships, and every 
time we have a lead ship we have a pretty substantial growth in 
time and cost to complete that ship. And our newest ship, the 
LCS, is no exception. We missed pretty substantially how much 
it was going to cost and how long it would take.
    So I am in the process of re-evaluating the intelligence of 
my cows.
    Frequently the analysts, like the Congressional Research 
Service, look at what we are doing and make comments on it. 
Have they done that for the LCS? And, if so, what are they 
telling us it is going to cost?
    Secretary Winter. Sir, I believe they have looked at that. 
There have been estimates that they have provided which are 
higher than the original estimates that we had for the program. 
I don't recall the specific numbers here right now, though.
    Mr. Bartlett. Do any of you recall the specific estimates 
that they have made, as to what the cost of the--how they 
conform to our present knowledge?
    Secretary Winter. We have looked at their estimates, and we 
have worked to compare our estimating methodology with them. 
That is part of the process that we engage in.
    Mr. Bartlett. I know that your analysis is not complete, 
but I also know that you have done a lot of work in the last 
45-plus days in looking at what went wrong.
    Can you tell us what we have learned so far, recognizing 
that there will be additional knowledge that we gain with the 
studies that are now ongoing that you will receive the results 
of in about two weeks?
    Can you tell us what we have now learned that we might use 
in the projections of what the next ship like the DD(X) will 
cost us and how we are going to avoid the, I think, consistent 
track record of never getting it right on the first ship?
    Secretary Winter. Yes, sir, I think that the principal 
lesson learned here is that we need to continue on with the 
design activities prior to initiating the construction 
activities until such time as we have both a clear set of 
requirements and a design that is consistent with those 
requirements.
    We have tended to initiate programs, design and 
construction activities, before we have finalized and settled 
on many of those requirements and design decisions. I think we 
also have to separate out the critical decisions of what it is 
that we want to buy, how we want to buy it, and who we want to 
buy it from.
    Those changes are going to require a change in terms of the 
acquisition flow, the structure of the contracting, and the 
contract type. My hope is that it will enable us to use more 
fixed-price-type contracting, FPI-type contracting, in the 
actual construction. And that will motivate both the 
contractors and the Navy to get it right from the get-go, in 
terms of the overall cost estimates.
    Mr. Bartlett. Are these causes of the overruns different 
than the cause of overruns in prior first-of-class ships?
    Secretary Winter. I think some of them, sir, are common. I 
think there are a few unique issues here. We can talk about 
aspects like the naval vessel rules as being unique, but I 
would also categorize them as generic requirements that 
continue to evolve as the design and construction activities 
have already been started. It is part of the requirements 
stabilization that we just have to get right in the future.
    Mr. Bartlett. Well, thank you very much.
    Thank you, Mr. Chairman. I yield back.
    The Chairman. The gentlelady from Guam, Ms. Bordallo.
    Ms. Bordallo. Thank you very much, Mr. Chairman.
    And, gentlemen--Secretary Winters, nice to see you again.
    And, Admiral.
    And of course, the commandant, thank you for coming to 
Guam. It was nice to visit with you last week.
    Gentlemen, I represent Guam, and geographically Guam is a 
small island. Geopolitically, however, Guam would seem to be 
growing larger and larger in significance with the advent of 
each new crisis in the Asia Pacific region. That the Department 
of Navy is readying itself to move a significant number of 
Marines from Okinawa to Guam is indicative of our importance.
    Could you share with the committee your thoughts on the 
role Guam will play in the next, say, 10 to 20 years? In 
particular, do you believe that Guam will grow in strategic 
importance to the Department of Navy, the fleet, the Marine 
Corps, and our country?
    And I guess I would give you this question, Mr. Secretary: 
Is the Marine movement process on target, since it will be a 
very costly move?
    Secretary Winter. Congresswoman, first of all, we are 
proceeding on the current plan. We have a plan in place in 
terms of the move of the Marines from Okinawa to Guam. As you 
know, this is also conditional on certain activities to be 
engaged in by the government of Japan. So we are watching that 
very carefully. So far, things seem to be moving on both sides 
properly.
    Our first initial steps here, in terms of its 
implementation, have to do with the stand-up of the joint Guam 
program office, which will manage this activity both in terms 
of the Marines, the Navy move, and also some of the supportive 
activities from the Army and the Air Forces.
    And the first activity for that group is the preparation of 
the environmental impact study. We are proceeding on that 
regard. We have asked for funds in this budget request to 
support that.
    We think that that will enable us to make the moves of the 
Marines to Guam, as well as some of the other activities, such 
as a transient CVN berthing and other requirements that have 
been asked for by both the Navy and the Army to be implemented. 
And this will all enable us to use Guam in the more strategic 
sense that you referred to earlier.
    General Conway. And I would add, ma'am, that I think Guam 
is going to be a centerpiece for our training in the Pacific. 
As you know well, there are some training opportunities on the 
island, but not sufficient for the numbers that would be there.
    So I have met with my commander in the Pacific. He is 
developing what he would call the Twentynine Palms of the 
Pacific, which would incorporate what is available on Guam but 
also what we could do on some other island chains nearby. And 
it looks encouraging.
    Ms. Bordallo. Very good. I am very happy to hear that, 
because we do work as a region, and some of the other islands 
have made this request.
    General Conway. Yes, ma'am.
    Ms. Bordallo. Also, I am encouraged--and I know this has 
been discussed--about the LCS ships on Guam. At one time, the 
Navy was considering basing some of them on the island.
    I am concerned, however, about reports that the cost of 
these ships will likely rise to--my figures here are $350 
million to $400 million, compared to a much lower estimate 
initially.
    Is Guam still being considered? Would you have to cut down 
the order? I know it has been discussed, but I just wondered if 
you have that information.
    Admiral Mullen. As was indicated earlier, ma'am, the LCS is 
about 20 percent of the future ship-building plan, and it is 
still a critical requirement for us. So my expectation is, 
obviously within affordability constraints, is that the number 
55 LCS is still out there, and we need to move forward to try 
to achieve that goal.
    We have worked various concepts of operations for where 
LCS's will operate, and the western Pacific certainly is one of 
those theaters that remains vital both to us as a Nation and, 
we think, to the world and certainly our regional partners 
there.
    And so, we would expect LCS, certainly, to operate there. 
We haven't made the final decision about where those ships are 
going to be home-ported.
    Ms. Bordallo. Thank you very much, Admiral.
    Thank you, Mr. Chairman. I yield back.
    The Chairman. The gentleman from South Carolina, Mr. 
Wilson.
    Mr. Wilson. Thank you, Mr. Chairman.
    And, Admiral, Mr. Secretary, General, thank you very much 
for being here today.
    I am very grateful. I have a son serving in the Navy. I am 
very grateful that serving in my office several years ago is 
the late Colonel McLeod, a Marine, a very proud Marine. Indeed, 
I just feel like we have got the best people serving in the 
Navy and Marine Corps ever. And so, I am very, very grateful 
for the difference that you all are making, protecting our 
country.
    Additionally I am very grateful that I represent--I am very 
fortunate to represent Parris Island, the Marine Air Station, 
the Beaufort Naval Hospital.
    And, Mr. Secretary, we are looking forward to your visit. I 
can assure you that the rose petals have been prepared. 
[Laughter.]
    And so, it will be a very warm visit in a very beautiful 
and historic community of Beaufort.
    As we look ahead, with the delay of the F-35 joint strike 
fighter, it affects the Marines and Navy in different ways. 
With the Navy, the shortage, in terms of aircraft for the 
carrier wings, is this going to be made up by F-18s as an 
interim? How will this be addressed?
    Admiral Mullen. The short fall that we project right now, 
out through the next 4 or 5 years, is about 50 strike fighters. 
And to fill in that shortfall, we are going to buy more F-18E/
Fs. The exact profile--I mean, there is a program to do this 
right now. So we put an additional 28 aircraft in our future-
year defense plan in order to start to get at and mitigate that 
shortfall.
    We are also wearing them out at a rate about 30 percent 
higher than we had expected to, which is why they are also in 
the supplemental request, because, obviously, at their expected 
service life, they are going to go away. That said, I am 
encouraged by the early results of a study to extend their 
life, to move them from 8,000 flight hours to 10,000 flight 
hours, which is another way to help mitigate that shortfall.
    In addition to--I need the F-35 as soon as we can get it.
    So it is that balance that we are trying to hit, with all 
those factors in play.
    General Conway. Sir, in our case, I think you know we have 
skipped a generation, if you will. We have not bought the E and 
the F. We waited for the arrival of the joint strike fighter. 
We, too, have some risk in the out-years, 2009, 2010, 2011, 
2012 or so, where we will be about 45 to 50 aircraft short. So 
any movement of the JSF right puts us at even greater risk.
    We are, as the admiral said, attempting to extend the life 
of the F-18s that we do have to hopefully mitigate that some.
    Mr. Wilson. And we are very pleased at the Marine Air 
Station; it is a joint base, Navy-Marine. Has there been any 
determination of where the F-35 Marine training facility will 
be?
    General Conway. Not decided yet, sir. We are looking at 
various options, as you might imagine. A number of factors come 
into it. But we are still some ways out from making that 
determination fully.
    Mr. Wilson. Well, Beaufort comes to mind?
    General Conway. Yes, sir, that is----
    Mr. Wilson. And additionally, I have had the privilege of 
landing on the Abraham Lincoln, the George Washington, in a C-2 
COD. That is a very memorable experience.
    And what is the status, Mr. Secretary, of the C-2? Is it 
being replaced? Are more being built? What is the status?
    Secretary Winter. Sir, the C-2 COD replacement program is 
currently scheduled, I believe, for several years out yet.
    And, CNO, maybe you can comment on that.
    I believe we are outside of the current planning period 
there. But we have identified it.
    Admiral Mullen. It is a very important asset. We have 
struggled, over the last decade or so, getting it in the 
program and sustaining it because of the other aviation 
requirements that are there.
    One of my commitments over the next year or so is to, not 
unlike we did in ship-building, is to get an aviation plan 
stabilized so, one, people can depend on it, and also all-
encompassing to these kind of requirements, again, within the 
limits of affordability.
    But the CODs are not young airplanes. And old airplanes, 
just like old ships, take a lot of money and a lot of 
maintenance. And clearly we are going to have to get this right 
for the future as well.
    Mr. Wilson. And, again, I appreciate your service. And, as 
I visit with the troops, all of us have gone to encourage them, 
but it really is in reverse: They encourage us. And thank you 
very much for your service.
    I yield the balance of my time.
    The Chairman. Before I call on the gentleman from 
Washington, Mr. Larsen, I might say that it appears that we 
will be having two votes shortly, one 15-minute vote, one 5-
minute vote. And in the event we don't get everyone called 
upon, I would hope that our witnesses could stick around until 
everyone has that opportunity, because we are moving along 
quite rapidly today.
    Mr. Larsen.
    Mr. Larsen. Thank you, Mr. Chairman.
    And, recognizing the 5-minute rule, I will say: Investment 
in the E-18G, good; P-8A, good. Marine Corps prepositioned 
Norway, good. With a name like Larsen, I am glad to see you 
mention that in your--I think that the Norway-U.S. relationship 
is a very important one.
    So that is the quick headline.
    For the secretary, obviously, we know you are going through 
this decision on home-porting the Benson as it comes out, and I 
know you met with my colleague from Washington state yesterday. 
And, you know, a lot of people looking forward to that 
decision. If there is any advice that you can continue to 
provide, all the communities would appreciate taking it.
    Now to a larger issue, and that is electronic warfare. And 
I have got questions for the admiral and the general on this.
    First off, General, I note that on the aircraft utilization 
rates, hours per month, your program utilization for EA-6Bs is 
29.6 hours and your actual utilization is 133.8 hours per 
month.
    And then I also note that, at least from what I have seen, 
in your planning timeline, your EA-6B platform is disappearing 
at some point, but so far the Marine Corps hasn't yet developed 
what they are planning to do beyond that for an electronic 
warfare (EW) capability. And I was wondering if you could take 
a few moments to enlighten us a little bit about what you are 
planning to do with that.
    General Conway. Sir, essentially what we have seen, 
starting with OIF really, is that our EA-6B squadrons became a 
national asset and were used very much in that regard. So that 
function of Marine aviation is increasingly being centralized 
and done more and more by Navy and Air Force. I think that they 
will come and we will not have the organic capability.
    Mr. Larsen. You won't--okay, well, then this makes it an 
even more interesting question for Admiral Mullen. Because, 
currently in OIF and OEF, the Navy is providing the E.W. 
capability not just from the air but on the ground as well. And 
I think, in the future, we may have a--not a conflict, but I 
know the Army is considering developing a land-based E.W. 
capability for specific missions. Talking about it, thinking 
about it, but not quite--sounds like not quite there to make a 
decision; still be relying on Navy.
    How has the increased responsibilities for the Navy doing 
most of the E.W. capability, land-based and air-based, how has 
it impacted the E.W. community? Would you say it is strained or 
not strained?
    Admiral Mullen. I think the community--and when you use 
that word, I think more of the people, that----
    Mr. Larsen. Yes.
    Admiral Mullen [continuing]. They are pushed, but their 
operational tempo is really pretty good. They are having a big 
impact. Alongside the Marine Corps----
    Mr. Larsen. Huge impact.
    Admiral Mullen [continuing]. These squadrons are 
centralized, and that the Navy and Marine Corps have the 
predominant capability for the Nation. And that is going to 
continue to be the case for the future. That is why the roll-
out of the Growler this year was so important. These aircraft 
are beyond their service life, typically about four years so 
far. So we have to move them forward in this mission very 
carefully, and it is a really vital mission.
    That is why we have asked for additional E-18Gs in the 
supplemental.
    Mr. Larsen. Right.
    Admiral Mullen. Because we need to replace these aircraft 
as rapidly as possible.
    Of concern to me is, beyond those aircraft that are 
required for the naval assets, Navy and Marine Corps, is the 
national mission, which is an increased number of aircraft 
overall, long term, that we have not invested in yet. And there 
is a substantial investment that would be required to meet 
that, as the Navy and the Air Force will provide this 
requirement over the long run.
    Mr. Larsen. I see the yellow light is on, so I will try to 
wrap up here.
    With regard to the Army--and I am not saying this, sort of, 
against the Army at all. It is just that with the IED work, the 
Navy is involved a lot with that obviously; the Army is getting 
more and more involved and sort of developing their own organic 
capability.
    Can you comment on how that relationship is going and where 
you think there might be----
    Admiral Mullen. Tremendous. We have had some 300 sailors 
embedded with the ground units from the Prowler community, from 
the surface community, from the submarine community. The Ops 
that enlisted over the last year, we are relieving them now. 
There isn't a ground commander that doesn't tell me, feed back 
to me what an impact they have had in positively effecting 
saving lives out there.
    The Army is committed to stand this capability back up. 
They are going to do that over the next two to three years. And 
I suspect our requirement will be reduced, obviously, as they 
stand it up.
    Mr. Larsen. Just a quick note, and then I would like to at 
some point then talk to you about whether there needs to be a 
joint service component for that. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Before I call on Ms. Drake, let me ask 
quickly: Are you cutting back, Admiral, on flying hours for the 
Navy? Training flying hours?
    Admiral Mullen. Not overall, no, sir. My stressed 
airframes, P-3s, I am managing each airframe by literally 
hours----
    The Chairman. That is not what I am asking.
    Admiral Mullen. No, sir. We are not.
    The Chairman. The Air Force is drawing down its personnel 
so they can invest more in assets--I think that is the way they 
frame it--things, physical things. Are you seeking a draw-down 
of any personnel?
    Admiral Mullen. Mr. Chairman, you and I have talked about 
this before. We are in our fourth year of about 10,000 a year. 
We have come down about--so that, at the end of 2007, this 
year, we will have come down about 40,000. We are requesting to 
come down about another 12,000 and then level off, basically, 
shortly after that.
    So I am comfortable with that draw-down. That clearly has 
created resources. That isn't why we did it originally, to 
create resources so we could buy things. We really thought it 
was the right thing to do.
    And, in fact, because of the cost of people, which I think 
is a huge challenge for all of us, I haven't really taken the 
resources that have come from the budget, which is over $5 
billion, and bought anything with it. In fact, my people costs 
are still going up very gradually. And that is a big concern 
that I have, near-term and far-term.
    The Chairman. Would that level-out show that kind of----
    Admiral Mullen. Yes, sir, that will level out in the next 
two to three years. We will level out somewhere between 
320,000, 325,000 active duty, uniformed sailors. There is a 
commensurate level-out on the reserve side.
    The Chairman. Thank you.
    Ms. Drake.
    Mrs. Drake. Thank you, Mr. Chairman.
    Admiral Mullen, first I want to say to you that about two 
weeks ago I had the opportunity to talk to a Navy lieutenant 
who is assigned to the Theodore Roosevelt, serving in Iraq, 
working on the reconstruction team.
    And what he told me in our conversation, which was just 
absolutely incredible--and crystal-clear cell phone reception, 
which surprised me--was about something called Iraq First, and 
how we are employing Iraqi companies and Iraqis first before 
they make other decisions. And that is not what we hear. And I 
wanted to thank you for that.
    And I think Congressman Wilson is exactly right, that he 
may have been surprised to get a call from a Member of 
Congress, but it was me that was really encouraged by the call 
and to hear what he is doing. So thank you for that.
    My question goes to Secretary Winter.
    You are aware that Virginia Beach has recently signed a 
memorandum of understanding to set forth principles with which 
the Navy can respond to development around Oceana. That 
memorandum of understanding clearly gives the Navy a seat at 
the table in the development process. And it also follows up on 
the joint land-use study, which ensures very early Navy 
participation and prohibits any new incompatible use in the 
APZ-1 in the Clear Zone. There are also financial incentives 
and a commitment of $15 million annually.
    I think this is a very serious long-term commitment to 
Oceana. And given this very significant effort on the part of 
Virginia Beach and the Commonwealth of Virginia, can you give 
citizens of Virginia Beach and Navy personnel that are 
stationed at Oceana an assurance that these efforts will 
satisfy the needs of the Navy?
    Secretary Winter. Well, ma'am, we are very appreciative of 
the work that has been done to date. We appreciate the 
opportunity to engage through the memorandum of understanding 
(MOU) process that you just described. We are looking forward 
to working with the local communities and the commonwealth to 
continue to help manage that activity.
    And we trust that if that activity continues to be as 
successful as people hope it will be, that we should be in a 
very good position for a long-term relationship there.
    Mrs. Drake. Good. That is very good. Thank you.
    And my second question is about, about a year ago the Naval 
Expeditionary Combat Command (NECC) was set up with 15 people 
at Little Creek to train, organize and equip expeditionary 
forces. Today the NECC forces are deployed around the world and 
certainly playing a major role in Afghanistan and Iraq.
    I believe the NECC is a success. So I wondered if you could 
share your observations concerning the NECC and tell us how we 
can better support this command to meet future requirements.
    Secretary Winter. Well, ma'am, I actually would like to 
hand that over to CNO, if you would permit, because----
    Mrs. Drake. That is fine.
    Secretary Winter [continuing]. I think the major advantages 
of NECC are operational in nature and really have afforded us 
the opportunity to integrate and coalesce all the relevant 
components that are operating overseas on our behalf.
    Mrs. Drake. And I would also tell Admiral Mullen that I 
visited Admiral Bullard this week and had a tour of what they 
are doing.
    Admiral Mullen. Thank you, ma'am. First of all, I would 
just like to say thanks for your support on the Oceana issue. I 
know you have been a very, very strong supporter in getting 
this right, and very consistent in your message. And I just 
echo what the secretary said, in terms of----
    Mrs. Drake. Thank you.
    Admiral Mullen [continuing]. The commitments, as these 
things continue to go well.
    NECC is a very important new command tied to the world that 
we are facing now and I think we are going to face for the next 
couple decades. It also provides an organization train-and-
equip for our explosive ordnance people, for our naval coastal 
warfare, for our Seabees, for our security forces, in addition 
to our riverine force.
    So when you talk with Admiral Bullard, he is commanding 
somewhere around 35,000 sailors right now. And the Navy wasn't 
organized to do this in the past. This is a big adjustment for 
us. But it gives us an ability to focus, provide resources, 
make sure that big Navy, as well as the Navy on the waterfront, 
is focused to make sure we can meet this capability for the 
future.
    And, as you said, they are deployed all over the world. I 
am concerned, in the case of the explosive ordnance personnel, 
about their OPTEMPO. They are in the fight every day. They are 
the ones that are out there before anybody else to see if there 
is an IED out there and then defusing it before anybody goes on 
the road, as an example.
    So there has been a tremendously positive step forward in 
this area and one that I think is really relevant for the 
future. And it has been well-supported, as all things Navy are, 
in Norfolk and Little Creek.
    The Chairman. The gentleman from Georgia, Mr. Johnson.
    Mr. Johnson. Thank you, Mr. Chairman.
    It is indeed a poor cow that can't lick its own calf. And 
in that regard, certainly we must have a military that is 
capable of protecting this country and its assets and its 
ability to positively influence policy around the globe. And 
so, I want to thank you for the work that you do in order to 
help us perform our constitutional duty, which is to provide 
for the common defense.
    And it is my great pleasure to serve on this committee, to 
help America remain strong and free.
    And of course the Navy helps us keep our shipping lanes 
free, so that we can protect against any aggression that may 
occur, and also provides us with the global reach to be able to 
project our power around this great earth.
    And the Marines are our shock troops, to go in, it is kind 
of like the battering ram, and meet the threat head-on.
    Now, what I would like to know today is, specifically 
General Conway, what types of injuries are we seeing 
predominantly as a result of the current wars in Iraq and 
Afghanistan?
    General Conway. Sir, we would say that the signature weapon 
that the enemy is using is the improvised explosive device. I 
think, as a result of that, a lot of the wounds that we see are 
concussion-related, as Congressman Cummings talked about. We do 
have a lot of head injuries, traumatic brain injuries, and that 
manner of thing.
    We see unconsciousness a lot, even when there is no other 
injury on the part of the Marines or sailors that may be in the 
vehicles or when they are struck on the ground.
    We also see amputations. We have a goodly number of those.
    I would say, though, just so there is a clear 
understanding, that the Navy medical support that the Marines, 
in particular, receive in the field is just tremendous. For 
every 11 Marines that are hit, one will be killed. And of the 
remaining ten, seven will be returned to duty.
    And those that do survive very serious injuries do so with 
the quality of care on the part of a corpsman, a young corpsman 
that may be little more than 21, 22 years old, that I think 
used to be provided by doctors. And I have heard that said 
again and again, that this Marine would not have survived had 
it not been for that brave and able corpsman on the scene.
    Mr. Johnson. Once the person is damaged by the traumatic 
brain injury, if you will, they may also suffer some post-
traumatic stress disorder as well, and even those who have not 
been injured can suffer post-traumatic stress as well. Are you 
seeing a large increase in the numbers of post-traumatic stress 
disorders?
    General Conway. Sir, I wouldn't say it is a large increase. 
I think it happens with every major conflict.
    We are aware that we have Marines suffering from it. We are 
taking every measure to try to diagnose it, understand it and 
treat it, even to the extent where we are sending people now 
into theater, so that they are there alongside the Marines at 
their base and station to examine.
    The Navy is looking at a baseline program which will help 
us to determine, even if an individual isn't willing to admit 
it, that he doesn't test the same way he did before he was, 
perhaps, subjected to a blast or a concussion.
    So we are taking every step that we can to try to get these 
young men and, in some cases, women back in battery as soon as 
we can.
    Mr. Johnson. Now, once a person suffered from post-
traumatic stress disorder or a close-to-head injury, a blast 
injury, and they exit the Army or they exit the armed services, 
they don't receive free medical care at that point like they do 
when they were enlisted, is that correct?
    General Conway. Sir, through the Veterans Administration, 
they can continue to get a level of medical care. We will 
document, of course, the nature of their injury, and if it has 
resulted in a discharge or that type of thing, there is a hand-
off there that takes place, and they can continue to get 
treatment.
    Mr. Johnson. Often, though, the treatment is not without 
cost to them, is that correct?
    General Conway. Yes, sir, that is fair.
    Mr. Johnson. And so, they have various deductibles that 
they must then come forward with themselves, in addition to 
actually trying to get to the location where they can be 
treated.
    Are we doing all that we can do to take care of our 
veterans, with respect to health care?
    General Conway. Sir, I think the answer is, yes, we are 
doing all that we can. I think we can still do more. But within 
the confines of where we are now--I don't know if you were here 
earlier when the question was raised and we talked about an 
assessment that the secretary of the Navy has directed to 
examine further just where the weak linkages may be and how we 
can improve.
    Mr. Johnson. All right. Thank you.
    The Chairman. Thank you, Mr. Johnson.
    We have one member left, and we do have two votes. I 
assume, from indications, that no one else wants to take a 
second round, so you can clean up, Mr. Sestak. You are 
recognized for five minutes.
    Mr. Sestak. Thank you, sir.
    Admiral, Mr. Secretary, General, I apologize, I wasn't here 
for all of it, particularly for the Department of the Navy's 
testimony. I had an appointment with my daughter at Children's 
Hospital. My apologies.
    Question, Admiral Mullen: There has been a significant 
reduction in aircraft procurement, Navy (APN) compared to last 
year. Between 2008 and 2011, we have taken out 125 aircraft. I 
gather that is to support the S.C. and the ship-building 
account. We have placed in the GWOT supplemental 43 aircraft, 
including, you know, the Prowlers and the F-18s and anti-
submarine helicopters.
    I know we have had some latitude of how we interpret what 
is for the global war on terror, but do you think this is the 
appropriate place to place these? Or does it help you permit to 
take some of the pressure off of the base budget that you have 
to undergo by putting this in the GWOT?
    Sir, if you don't mind?
    Admiral Mullen. I think it is a great question. It is one, 
as I know you know, it is one of trying to balance everything 
to get it right.
    I think it is probably too harsh to say it is a direct 
result of the SCN plan. And clearly we have worked to balance 
those two. I am committed this year to try to get stability in 
the APN plan, not unlike what we have put in place in the SCN 
plan.
    Maybe a little different perspective is if I go back to the 
2003 budget, when we had 83 airplanes in the APN plan. We are 
at 188 this year. We are 40 more airplanes, I think it is 40 
more airplanes, this year than we bought last year.
    And so, the ramp is up. It is not up as rapidly as we would 
like it to be, and it does get to the heart of the shortfall, 
the strike fighter shortfall, which we also talked a little bit 
about earlier.
    We are wearing them out----
    Mr. Sestak. I am sorry, I don't mean to interrupt. But do 
you think this is the appropriate place to place those 45 air--
--
    Admiral Mullen. We are wearing them out pretty quickly, and 
we are wearing them out in Prowlers; we are clearly wearing 
them out in Iraq and Afghanistan. And actually, even the 
Hornets, you know, most of our support is there. So that is a 
factor of wearing out aircraft we can't replace.
    Mr. Sestak. Sir, in steaming hours, last year you came in 
at 36 steaming hours per quarter. I gather potentially you were 
going to make it up in the supplemental. This year you have 
come in at 45 steaming hours per quarter for deployed units and 
state that the rest of it will come from the supplemental.
    We historically have operated, or the DON has, at 51 days 
per quarter. Wouldn't you historically just operate at 51 days 
anyway? And is the appropriate use of GWOT funding?
    Admiral Mullen. Part of the reason that we came in so low 
last year and obviously moved it up this year was that we 
looked at where we were steaming and what we were doing. And, 
in fact, our deployed steaming days were in the 60's and the 
70's. And in the overall program, both the 36--and we probably 
went to low--but the 45 is the same thing, just trying to 
balance on these.
    And the last thing in the world I want to do is try to game 
the supplemental in that regard. What we find ourselves doing 
is we are steaming an awful lot while deployed.
    Mr. Sestak. Mr. Secretary, I probably already missed this 
question, but just one more, CNO. The ADS, advanced deployable 
system, you stated we have canceled that in the budget, at 
calculated risk, and stated that we will rely upon more 
traditional systems, platform systems.
    This is a change from the anti-submarine warfare (ASW) 
concept of operations of a few years ago, particularly with 
China now, by the end of next year, having 28 or 29 modern 
submarines--the same amount of submarines, if not more, total 
that we have. And with submarines at $2 billion and this 
platform, is this a significant change for the Navy?
    And, if so, if we are relying upon systems that have been 
sufficient in the past--that were sufficient in the past, now 
in the future, why did we go after this ADS and other systems 
then?
    Admiral Mullen. It isn't a significant change, in terms of 
where we are headed. We still need distributed systems. We need 
remote censors. We need the kind of queuing that I know you are 
familiar with in order to make this overall concept work.
    What we found in the ADS in particular is it wasn't ready, 
technically really challenging, and very expensive.
    Mr. Sestak. So the other systems of distribution----
    Admiral Mullen. Yes, sir. The other systems are still 
working and for the future.
    Mr. Sestak. Thank you.
    Mr. Secretary, the last question: To some degree, there has 
always been just a conspiracy of optimism. We always hope that 
things are going to be well-done. CBO has said that the cost of 
the ship-building program of 30 years will be one-third higher 
than its projected. That is $4 billion to $5 billion more per 
year. To some degree, we are already facing this pressure by 
taking amphibious assault ship replacement (LHAR) out in fiscal 
year 2010, and we face this in the LCS overruns.
    Are we facing a realistic budget that we really do think we 
are going to be able, at the procurement, a budget of $14.5 
billion per year--that CBO projection that it will be 35 
percent higher. We are already taken a $3.5 billion ship out. 
Is that realistic?
    Thank you, Mr. Chairman.
    The Chairman. Go ahead and answer the question.
    Secretary Winter. Sir, I think that that is a matter that 
we are going to be looking at very carefully here in the 
aftermath of LCS. One of the critical issues that I need to 
understand is how much of this is really associated with lead 
ship-related activities and how much is more tied to 
production-related aspects. And that is something we will be 
getting at here shortly.
    Mr. Sestak. Thank you very much.
    I am sorry I went over.
    The Chairman. I might say something to my friend from 
Pennsylvania, that the spirit of optimism pervades all of the 
services, and, in many cases, that is a very, very good thing. 
Thank you for mentioning it.
    Secretary Winter, Admiral Mullen, General Conway, we 
appreciate you being with us. We are going to be able to make 
our vote. And you thoroughly answered our questions, and we 
will proceed from here. Thank you.
    And we are adjourned.
    [Whereupon, at 11:39 a.m., the committee was adjourned.]
?

      
=======================================================================




                            A P P E N D I X

                             March 1, 2007

=======================================================================





=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 1, 2007

=======================================================================


    [GRAPHIC] [TIFF OMITTED] 37654.001
    
    [GRAPHIC] [TIFF OMITTED] 37654.002
    
    [GRAPHIC] [TIFF OMITTED] 37654.003
    
    [GRAPHIC] [TIFF OMITTED] 37654.004
    
    [GRAPHIC] [TIFF OMITTED] 37654.005
    
    [GRAPHIC] [TIFF OMITTED] 37654.006
    
    [GRAPHIC] [TIFF OMITTED] 37654.007
    
    [GRAPHIC] [TIFF OMITTED] 37654.008
    
    [GRAPHIC] [TIFF OMITTED] 37654.009
    
    [GRAPHIC] [TIFF OMITTED] 37654.010
    
    [GRAPHIC] [TIFF OMITTED] 37654.011
    
    [GRAPHIC] [TIFF OMITTED] 37654.012
    
    [GRAPHIC] [TIFF OMITTED] 37654.013
    
    [GRAPHIC] [TIFF OMITTED] 37654.014
    
    [GRAPHIC] [TIFF OMITTED] 37654.015
    
    [GRAPHIC] [TIFF OMITTED] 37654.016
    
    [GRAPHIC] [TIFF OMITTED] 37654.017
    
    [GRAPHIC] [TIFF OMITTED] 37654.018
    
    [GRAPHIC] [TIFF OMITTED] 37654.019
    
    [GRAPHIC] [TIFF OMITTED] 37654.020
    
    [GRAPHIC] [TIFF OMITTED] 37654.021
    
    [GRAPHIC] [TIFF OMITTED] 37654.022
    
    [GRAPHIC] [TIFF OMITTED] 37654.023
    
    [GRAPHIC] [TIFF OMITTED] 37654.024
    
    [GRAPHIC] [TIFF OMITTED] 37654.025
    
    [GRAPHIC] [TIFF OMITTED] 37654.026
    
    [GRAPHIC] [TIFF OMITTED] 37654.027
    
    [GRAPHIC] [TIFF OMITTED] 37654.028
    
    [GRAPHIC] [TIFF OMITTED] 37654.029
    
    [GRAPHIC] [TIFF OMITTED] 37654.030
    
    [GRAPHIC] [TIFF OMITTED] 37654.031
    
    [GRAPHIC] [TIFF OMITTED] 37654.032
    
    [GRAPHIC] [TIFF OMITTED] 37654.033
    
    [GRAPHIC] [TIFF OMITTED] 37654.034
    
    [GRAPHIC] [TIFF OMITTED] 37654.035
    
    [GRAPHIC] [TIFF OMITTED] 37654.036
    
    [GRAPHIC] [TIFF OMITTED] 37654.037
    
    [GRAPHIC] [TIFF OMITTED] 37654.038
    
    [GRAPHIC] [TIFF OMITTED] 37654.039
    
    [GRAPHIC] [TIFF OMITTED] 37654.040
    
    [GRAPHIC] [TIFF OMITTED] 37654.041
    
    [GRAPHIC] [TIFF OMITTED] 37654.042
    
    [GRAPHIC] [TIFF OMITTED] 37654.043
    
    [GRAPHIC] [TIFF OMITTED] 37654.044
    
    [GRAPHIC] [TIFF OMITTED] 37654.045
    
    [GRAPHIC] [TIFF OMITTED] 37654.046
    
    [GRAPHIC] [TIFF OMITTED] 37654.047
    
    [GRAPHIC] [TIFF OMITTED] 37654.048
    
    [GRAPHIC] [TIFF OMITTED] 37654.049
    
    [GRAPHIC] [TIFF OMITTED] 37654.050
    
    [GRAPHIC] [TIFF OMITTED] 37654.051
    
    [GRAPHIC] [TIFF OMITTED] 37654.052
    
    [GRAPHIC] [TIFF OMITTED] 37654.053
    
    [GRAPHIC] [TIFF OMITTED] 37654.054
    
    [GRAPHIC] [TIFF OMITTED] 37654.055
    
    [GRAPHIC] [TIFF OMITTED] 37654.056
    
    [GRAPHIC] [TIFF OMITTED] 37654.057
    
    [GRAPHIC] [TIFF OMITTED] 37654.058
    
    [GRAPHIC] [TIFF OMITTED] 37654.059
    
    [GRAPHIC] [TIFF OMITTED] 37654.060
    
    [GRAPHIC] [TIFF OMITTED] 37654.061
    
    [GRAPHIC] [TIFF OMITTED] 37654.062
    
    [GRAPHIC] [TIFF OMITTED] 37654.063
    
    [GRAPHIC] [TIFF OMITTED] 37654.064
    
    [GRAPHIC] [TIFF OMITTED] 37654.065
    
    [GRAPHIC] [TIFF OMITTED] 37654.066
    
    [GRAPHIC] [TIFF OMITTED] 37654.067
    
    [GRAPHIC] [TIFF OMITTED] 37654.068
    
    [GRAPHIC] [TIFF OMITTED] 37654.069
    
    [GRAPHIC] [TIFF OMITTED] 37654.070
    
    [GRAPHIC] [TIFF OMITTED] 37654.071
    
    [GRAPHIC] [TIFF OMITTED] 37654.072
    
    [GRAPHIC] [TIFF OMITTED] 37654.073
    
    [GRAPHIC] [TIFF OMITTED] 37654.074
    
    [GRAPHIC] [TIFF OMITTED] 37654.075
    
    [GRAPHIC] [TIFF OMITTED] 37654.076
    
    [GRAPHIC] [TIFF OMITTED] 37654.077
    
    [GRAPHIC] [TIFF OMITTED] 37654.078
    
    [GRAPHIC] [TIFF OMITTED] 37654.079
    
    [GRAPHIC] [TIFF OMITTED] 37654.080
    
    [GRAPHIC] [TIFF OMITTED] 37654.081
    
    [GRAPHIC] [TIFF OMITTED] 37654.082
    
    [GRAPHIC] [TIFF OMITTED] 37654.083
    
    [GRAPHIC] [TIFF OMITTED] 37654.084
    
    [GRAPHIC] [TIFF OMITTED] 37654.085
    
    [GRAPHIC] [TIFF OMITTED] 37654.086
    
    [GRAPHIC] [TIFF OMITTED] 37654.087
    
    [GRAPHIC] [TIFF OMITTED] 37654.088
    
    [GRAPHIC] [TIFF OMITTED] 37654.089
    
    [GRAPHIC] [TIFF OMITTED] 37654.090
    
    [GRAPHIC] [TIFF OMITTED] 37654.091
    
    [GRAPHIC] [TIFF OMITTED] 37654.092
    
    [GRAPHIC] [TIFF OMITTED] 37654.093
    
    [GRAPHIC] [TIFF OMITTED] 37654.094
    
    [GRAPHIC] [TIFF OMITTED] 37654.095
    
    [GRAPHIC] [TIFF OMITTED] 37654.096
    
    [GRAPHIC] [TIFF OMITTED] 37654.097
    
    [GRAPHIC] [TIFF OMITTED] 37654.098
    
    [GRAPHIC] [TIFF OMITTED] 37654.099
    
    [GRAPHIC] [TIFF OMITTED] 37654.100
    
    [GRAPHIC] [TIFF OMITTED] 37654.101
    
    [GRAPHIC] [TIFF OMITTED] 37654.102
    
    [GRAPHIC] [TIFF OMITTED] 37654.103
    
    [GRAPHIC] [TIFF OMITTED] 37654.104
    
    [GRAPHIC] [TIFF OMITTED] 37654.105
    
    [GRAPHIC] [TIFF OMITTED] 37654.106
    
    [GRAPHIC] [TIFF OMITTED] 37654.107
    
    [GRAPHIC] [TIFF OMITTED] 37654.108
    
    [GRAPHIC] [TIFF OMITTED] 37654.109
    
    [GRAPHIC] [TIFF OMITTED] 37654.110
    
    [GRAPHIC] [TIFF OMITTED] 37654.111
    
    [GRAPHIC] [TIFF OMITTED] 37654.112
    
    [GRAPHIC] [TIFF OMITTED] 37654.113
    
    [GRAPHIC] [TIFF OMITTED] 37654.114
    
    [GRAPHIC] [TIFF OMITTED] 37654.115
    
?

      
=======================================================================


             QUESTIONS AND ANSWERS SUBMITTED FOR THE RECORD

                             March 1, 2007

=======================================================================

      
                   QUESTIONS SUBMITTED BY MR. MCKEON

    Mr. McKeon. Admiral, I note that you have listed $96M for Critical 
ASW Enhancements as the 4th of 20 items on your FY 2008 Unfunded 
Programs List. Can you describe for me the importance of unmanned 
surface vessels, operated from the Littoral Combat Ship and other 
surface combatants, to distributed anti-submarine warfare?
    Admiral Mullen. Unmanned surface vehicles are an important feature 
of the Navy's future ASW concepts for three reasons. First, unmanned 
surface vehicles allow the use of passive as well as active bistatic/
multistatic systems to establish detection of the target submarine 
while separating the active acoustic source from the manned Navy 
platform. Other surface combatants could also be the passive receiver 
for these active sources. Second, by deploying multiple offboard 
vehicles, the host ship can search a larger ocean area than would be 
possible with hull mounted sensors. Finally, the relatively long 
endurance time of the unmanned surface vehicles dovetail with the 
availability of aerial ``pouncers'' like the SH-60B/F/R.
    Mr. McKeon. Admiral, you may know that a large part of the China 
Lake Naval Base is in my district. I was happy to see the results of 
the BRAC legislation which enacted, among other things, China Lake as a 
Center of Excellence (COE) for Weapons and Armaments research, 
development, acquisition, testing for the Navy while also establishing 
similar Centers for the Army and Air Force. I am especially pleased 
because of what it portends for greater efficiencies and the potential 
for these three centers to work together toward joint service 
solutions. I am anxious to learn how the implementation of the China 
Lake COE is progressing, understanding that the USAF and USA Weapons 
and Armaments COEs are moving forward. Will you please provide me with 
an update on the progress of the implementation as set forth by the 
BRAC Commission, and also comment on the Navy's view of the BRAC 
legislation relative to the China Lake COE? Will you please also 
include an estimate of when the Navy might start to realize the 
efficiencies that BRAC will bring?
    Admiral Mullen. The Department of the Navy (DON) submitted the 
Naval Integrated Weapons & Armaments Research, Development, Test & 
Evaluation Center (Tech 15) plan to the Office of the Secretary of 
Defense on 5 April 2007 for approval. A summary paper will be provided 
after the plan is approved. DON believes the technical synergy created 
by this recommendation will be invaluable.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MS. TAUSCHER
    Ms. Tauscher. The Aegis Ballistic Missile Defense (Aegis BMD) is 
one of the most promising missile defense capabilities. a. Could you 
provide us an update on the status of your current plans for upgrading 
Aegis ships to conduct missile defense operations?
    Admiral Mullen. The Missile Defense Agency is committed to fund 18 
Ballistic Missile Defense (BMD) capable ships (15 destroyers and three 
cruisers) by 2009. The Navy's Destroyer Modernization Program is funded 
to provide BMD capability for the remaining 47 destroyers. Two 
destroyers will begin modernization in FY12, and three destroyers will 
be upgraded each following year. BMD capability for the remaining 19 
cruisers is not funded. Adding BMD capability for the remaining 
cruisers is under consideration for POM-10.
    Ms. Tauscher. All Aegis BMD-capable ships are currently deployed in 
the Pacific. a. Given the emerging missile threat from Iran, have you 
given any thought to assigning Aegis BMD-capable ships to CENTCOM on a 
regular basis? b. Does the Navy currently have enough Aegis BMD-capable 
ships to meet all of its requirements over the next 5-10 years? c. 
Could that Navy use more resources to upgrade additional Aegis ships?
    Admiral Mullen. (a) There are currently seven BMD-capable ships 
available for deployment to any theater of operation. The Missile 
Defense Agency provides funding for 15 destroyers and three cruisers to 
be completed by FY 2009. Based on the demands of our combatant 
commanders, the Navy carefully considers where these multi-mission 
platforms are employed. Iran is certainly a growing concern.
    (b) The Missile Defense Agency (MDA) will modify a total of 15 
destroyers and three cruisers by 2009. The Navy's Destroyer 
Modernization Program is funded to provide BMD capability to the 
remaining 47 destroyers beginning in FY12. The requirement for BMD 
capability for the remaining 19 cruisers is unfunded and is under 
consideration for POM-10.
    (c) Additional ship capacity provides increased flexibility to 
operational commanders. The Missile Defense Agency's (MDA) resources 
provided in the President's budget will upgrade a total of 18 Aegis 
ships for Ballistic Missile Defense (BMD), including two destroyers in 
the Atlantic Fleet. Future war fighting requirements are uncertain; 
however, the addition of 19 BMD capable Aegis cruisers to the 18 Aegis 
ships provided by MDA and the 47 destroyers programmed in the Destroyer 
Modernization Program is being considered in POM-10.
                                 ______
                                 
             QUESTIONS SUBMITTED BY MS. DAVIS OF CALIFORNIA
    Ms. Davis. I have had some concerns about the battalion aid 
stations at Camp Pendleton. And so, I would just ask you to take a look 
at that.
    One of the concerns is that the corpsmen there do not have access 
to the technology that they need to track many of the Marines there. 
And the other concern is that they are using Marine Corps dollars as 
opposed to Navy medical dollars to treat many of the folks there.
    General Conway. Based on input we compiled from a recent 
installation data call, the Marine Corps has action underway on several 
fronts. For the near term, HQMC developed minimum habitability 
standards and directed that our operational commanders and 
installations take immediate action to ensure these standards are met. 
If they cannot be met, the facility is to be closed. Installations are 
to report back no later than 30 June of this year that each BAS/RAS has 
met these standards or has been closed. These standards include but are 
not limited to requirements for clean and freshly painted surfaces, 
floors in good structural repair and well maintained, mechanical 
systems in good operating order, sufficient lighting, regularly 
scheduled field day and solid waste disposal, exam room privacy, 
waiting areas that are separated from the examination rooms, clean and 
operational windows with proper window treatments, sufficient ``double 
lock'' storage for medical records, doors with properly functioning 
hardware, sufficient fire suppression equipment/smoke detectors with 
documented evidence of routine inspection, and furnishings that comply 
with basic infection control by being clean, functional and in 
reasonable repair. Funding is in place at the operational unit level 
and at our installations to take necessary corrective actions to meet 
these standards.
    We are also translating recently developed medical standards for 
the level of care that is to be provided within a BAS/RAS into basic 
facilities criteria to support this level of care. These criteria 
define the square footage, configuration, special requirements, 
mechanical systems, etc. necessary to support the number of Marines 
assigned. These criteria will be used to assess whether sufficient 
capacity and quality of facilities are available to support these 
units, and where not, provide the necessary information to develop 
corrective projects. In addition, we are revising our facility coding 
process to provide BASs/RASs with a unique facility identifier, which 
will allow better tracking of the condition of these facilities. We 
expect these efforts to be completed this fiscal year. These criteria 
and unique identifiers will allow us to ensure the appropriate priority 
is assigned to corrective projects for these facilities and that we 
programmatically address overall requirements through our minor 
construction and, if necessary, the Military Construction Program.
    Finally, a recent revision to the Manual of the Medical Department 
delineating Navy Medicine's funding responsibilities for garrison care 
was signed by the Surgeon General of the Navy on May 16, 2007. 
Establishing both the medical standards and the fiscal 
responsibilities, this revision has allowed USMC and USN Health 
Services and Facilities organizations to develop facilities criteria 
for aid stations that when combined with the medical standards can be 
incorporated into inspection protocols used by the Inspector General 
and other oversight organizations to validate routine compliance.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. MILLER
    Mr. Miller. The F-35 Joint Strike Fighter procurement plan has 
shifted so far to the right that there is a real danger that we will 
not have enough carrier air wings to match up with our carriers in the 
middle of the next decade. What is the plan? Are you going to ramp up 
the F/A-18 production line? Where does the delay of the F-35 leave the 
Marine Corps, which never transitioned to the F/A-18 from the F/A-14 
Tomcats?
    Secretary Winter and Admiral Mullen. Inventory reductions stemming 
from the USN/USMC TACAIR Integration; F/A-18/A/B/C/D service life 
limits, the 2004 Joint Strike Fighter (JSF) program replan, and lowered 
JSF procurement ramps have combined to create a Department of the Navy 
(DoN) strike-fighter shortfall that exists today and possibly extends 
through 2020.
    The USMC shortfall peaks in 2013, and is a result of service life 
limitation and attrition of the F/A-18D and AV-8B airframes. The USMC 
shortfall is being minimized by prioritizing Short Take-Off & Vertical 
Landing (STOVL) JSF in the early Low-Rate Initial Production (LRIP) 
buys to maintain the Initial Operational Capability (IOC) of 2012.
    Navy's shortfall is projected to peak in 2018. The depth and 
breadth of that shortfall is directly related to the JSF 
recapitalization plan and legacy F/A-18A/C service life predictions. 
The strike-fighter shortfall range varies depending on these 
recapitalization rates and service life limitations.
    To begin mitigating the shortfall, the Fiscal Year (FY) 2008 budget 
procures 28 additional F/A-18E/F above the FY07 Appropriations Bill in 
FYs 2010-2012. This investment will also keep the F/A-18E/F production 
line open and provide DoN with options during a more informed POM-10 
decision process.
    The F/A-18A/B/C/D Hornet service life assessment program is due to 
complete in December 2007. Results of this effort will better define 
the shortfall and support required adjustments to F/A-18E/F and JSF 
procurement plans, while ensuring DoN provides the capacity and 
capabilities desired by component commanders.
    Mr. Miller. How will the delay of BRAC 2005 FY07 funding impact 
Navy BRAG execution?
    Secretary Winter and Admiral Mullen. Department of the Navy (DON) 
has received approximately $297M out of a budget request of $690M. If 
the FY07 supplemental request for $3.1B is approved, DON would expect 
to receive an additional $393M, which would fully fund the BRAG 05 FY07 
program.
    Impacts if additional funding is not received:

    <bullet>  BRAC construction projects will be disproportionately 
affected. $565M (81%) of the BRAC 05 PB 07 program is for planning, 
design and execution of construction projects. There are forty-nine 
construction projects scheduled for contract award this fiscal year.
    <bullet>  Without the full program amount for FY07, savings already 
programmed, that are intended to support BRAG implementation, will be 
delayed or possibly not realized.
    <bullet>  May impact September 15, 2011 statutory deadline.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. KLINE
    Mr. Kline. What are the costs associated with the Wounded Warrior 
regiment? Will additional funding be required and requested?
    General Conway. Initial stand up costs for the wounded warrior 
regiment will be approximately $61M in FY08 primarily due to new MILCON 
projects. Daily operational costs for the command and its facilities 
will be about $7.2M annually. The Marine Corps has incorporated these 
costs into its baseline funding requests. No unfunded requirements have 
been identified at this time.


----------------------------------------------------------------------------------------------------------------
                           $Million                              FY07   FY08    FY09   FY10   FY11   FY12   FY13
----------------------------------------------------------------------------------------------------------------
MILCON                                                                  $56.0
----------------------------------------------------------------------------------------------------------------
O&M
----------------------------------------------------------------------------------------------------------------
FSRM                                                                                   $2.1   $2.1   $2.1   $2.1
----------------------------------------------------------------------------------------------------------------
CIVPAY                                                           $0.5    $1.5   $1.5   $1.6   $1.6   $1.6   $1.6
----------------------------------------------------------------------------------------------------------------
Contracts/Supplies/TAD                                           $2.9    $2.9   $2.9   $3.0   $3.0   $3.0   $3.0
----------------------------------------------------------------------------------------------------------------
Collateral Equipment                                                            $4.8
----------------------------------------------------------------------------------------------------------------
NMCI                                                                     $0.4   $0.6   $0.4   $0.5   $0.5   $0.5
----------------------------------------------------------------------------------------------------------------
O&M--Total                                                       $3.4    $4.8   $9.8   $7.1   $7.2   $7.2   $7.2
----------------------------------------------------------------------------------------------------------------
Total All Appn                                                   $3.4   $60.8   $9.8   $7.1   $7.2   $7.2   $7.2
----------------------------------------------------------------------------------------------------------------

    Mr. Kline. In your written testimony, you discuss the goal of 
achieving a 1:2 deployment-to-dwell ratio. For the Marine Corps, this 
translates to seven months deployed, fourteen months at home station. 
What was the deployment-to-dwell ratio prior to the September 11, 2001 
terrorist attacks and since the commencement of combat operations in 
Operations Enduring Freedom and Iraqi Freedom?
    General Conway. Prior to the September 11, 2001 terrorist attacks 
the Marine Corps maintained a deployment-to-dwell ratio of 1:3. This 
allowed us to conduct all necessary field training and still provide 
our Marines with two months in their home residence for each one month 
away from home.
    Dwell since the September 11, 2001 terrorist attacks varies by unit 
type but in aggregation reflects an approximate 1:1.5 deployment to 
dwell over the entire period.
    Mr. Kline. In Section III, ``Resetting the force and preparing for 
the next contingency,'' you discuss the high optempo's, the high 
utilization rates for both ground and aviation equipment, and the high 
mission capable rates for that deployed equipment. As you note in that 
testimony, the cost of these high mission capable rates is ``a decrease 
in non-deployed unit readiness.'' What are the current readiness levels 
of non-deployed (i.e., those units at home station) units?
    General Conway. [The information referred to is classified and 
retained in the committee files.]
    Mr. Kline. How much money was allocated specifically for 
recruitment advertising in FY 2006 and FY 2007? What has been budgeted 
for advertising in FY 2008 (to include the supplemental funding)?

    General Conway.


------------------------------------------------------------------------
      3CIF OMMC                          2006        2007        2008
------------------------------------------------------------------------
                          BASELINE
        Recruiting                       69,808      63,948      82,196
       Advertising                       44,584      44,935      59,182
             Total                      114,392     108,883     141,378
                              SUPP
        Recruiting                       13,569      20,253      25,139
       Advertising                       14,742      38,205      19,048
             Total                       28,311      58,458      44,187
------------------------------------------------------------------------



------------------------------------------------------------------------
     4A6G OMMCR
------------------------------------------------------------------------
                        BASELINE
        Recruiting                     3,187        3,149        3,397
       Advertising                     4,726        4,815        5,293
             Total                     7,913        7,964        8,690
                            SUPP
        Recruiting                        60
       Advertising                         0
             Total                        60            0            0
------------------------------------------------------------------------

                                 ______
                                 
                   QUESTIONS SUBMITTED BY MRS. DRAKE
    Mrs. Drake. Mr. Secretary, as you know, the Navy is in the process 
of conducting an Environmental Impact Statement to study the 
feasibility of stationing additional surface ships and/or a nuclear 
aircraft carrier at Naval Station, Mayport, FL. The Quadrennial Defense 
Review and the retirement of the Kitty Hawk will begin the movement of 
aircraft carriers and submarines to the Pacific. Considering the large 
military construction bill that faces us on the West Coast and in 
places such as Guam, do you believe the threat and the cost of building 
new nuclear infrastructure merits such an investment at this time?
    Secretary Winter. The Navy is very sensitive to the full impact of 
any change in force structure. In addition to environmental concerns 
addressed in the Environmental Impact Statement (EIS) process, we take 
into account numerous other important factors when developing a 
complete assessment of any such changes. These factors include national 
security requirements, strategic positioning of our ships, force 
posture adjustments in accordance with the QDR, existing capabilities, 
total cost and other programmatic implications, impact on sailors and 
their families, and the effect on local economies. These and other 
considerations help to form a complete and total plan that will guide 
any force structure decisions.
    For Naval Station Mayport, the Navy has undertaken this EIS to 
ensure that we continue to effectively support Fleet operational 
requirements through the most efficient utilization of this base in the 
future and to evaluate the potential enviromnental impacts on Mayport 
for each of the ship homeporting alternatives that are under 
consideration.
    The Navy is being both environmentally and fiscally responsible in 
awaiting the conclusion of the EIS, with a Record of Decision expected 
in January 2009, to add to the body of knowledge before making any 
specific recommendations for force structure changes.
    Mrs. Drake. Mr. Secretary, in FY07, Congress authorized and 
appropriated $13.5 million dollars to construct the first phase of a 
much-needed headquarters facility for the Joint Forces Command. As you 
know, the Military Quality of Life Bill was not completed last year. 
Today, Joint Forces Command has the Service's lead role in 
transformation. It serves a pivotal role in experimentation, modeling 
and simulation and joint training. As the Executive Agent for Joint 
Forces Command, what is the Navy's plan to ensure the warfighters have 
a modern headquarters that meets the requirements and demands of Joint 
Forces Command's mission?
    Secretary Winter. The P839 Joint Forces Command (JFCOM) 
Headquarters Building is included as a priority in the Department of 
the Navy project list for consideration and rationalization in the next 
budget cycle. Joint Forces Command's requirements are being evaluated 
with respect to other competing priorities and funding, and will be 
addressed with the rest of the Navy shore infrastructure requirements.

                                  <all>

</pre></body></html>
